<html>
<title> - U.S./MEXICAN TRUCKING: SAFETY AND THE CROSS-BORDER DEMONSTRATION PROJECT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   U.S./MEXICAN TRUCKING: SAFETY AND THE CROSS-BORDER DEMONSTRATION 
                                PROJECT 

=======================================================================

                                (110-16)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-787 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)


                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                        PETER A. DeFAZIO, Oregon

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
JUANITA MILLENDER-McDONALD,          THOMAS E. PETRI, Wisconsin
California                           HOWARD COBLE, North Carolina
ELLEN O. TAUSCHER, California        RICHARD H. BAKER, Louisiana
TIM HOLDEN, Pennsylvania             GARY G. MILLER, California
MICHAEL E. CAPUANO, Massachusetts    ROBIN HAYES, North Carolina
JULIA CARSON, Indiana                HENRY E. BROWN, Jr., South 
TIMOTHY H. BISHOP, New York          Carolina
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
BRIAN HIGGINS, New York              TODD RUSSELL PLATTS, Pennsylvania
GRACE F. NAPOLITANO, California      JOHN BOOZMAN, Arkansas
MAZIE K. HIRONO, Hawaii              SHELLEY MOORE CAPITO, West 
JASON ALTMIRE, Pennsylvania          Virginia
TIMOTHY J. WALZ, Minnesota           JIM GERLACH, Pennsylvania
HEATH SHULER, North Carolina         MARIO DIAZ-BALART, Florida
MICHAEL A ARCURI, New York           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  TED POE, Texas
JERRY MCNERNEY, California           DAVID G. REICHERT, Washington
BOB FILNER, California               CHARLES W. BOUSTANY, Jr., 
ELIJAH E. CUMMINGS, Maryland         Louisiana
BRIAN BAIRD, Washington              JEAN SCHMIDT, Ohio
DANIEL LIPINSKI, Illinois            CANDICE S. MILLER, Michigan
DORIS O. MATSUI, California          THELMA D. DRAKE, Virginia
STEVE COHEN, Tennessee               MARY FALLIN, Oklahoma
ZACHARY T. SPACE, Ohio               VERN BUCHANAN, Florida
BRUCE L. BRALEY, Iowa                JOHN L. MICA, Florida
HARRY E. MITCHELL, Arizona             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)




















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

 Gillan, Jacqueline S., Vice President Advocates for Highway and 
  Auto Safety....................................................    45
 Hill, Hon. John H., Administrator, Federal Motor Carrier 
  Administration, accompanied by Jeffrey N. Shane, Under 
  Secretary for Policy, U.S. Department of Transportation........     4
 Hoffa, James P., General President International Brotherhood of 
  Teamsters......................................................    45
 Rogers, Major Mark, State Commercial Vehicle Safety Coordinator, 
  Texas Department of Public Safety..............................    45
 Scovel, Hon. Calvin L., III, Inspector General, U.S. Department 
  of Transportation..............................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    59
Cummings, Hon. Elijah E., of Maryland............................    60
Johnson, Hon. Eddie Bernice, of Texas............................   294
Lipinski, Hon. Daniel W., of Illinois............................   299
Mica, Hon. John L., of Florida...................................   300
Mitchell, Hon. Harry E., of Arizona..............................   308

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Gillan, Jacqueline S............................................    65
 Hill, Hon. John H...............................................   264
 Hoffa, James P..................................................   271
 Rogers, Major Mark..............................................   314
 Scovel, Hon. Calvin L., III.....................................   316
Shane, Hon. Jeffrey N............................................   264

                       SUBMISSIONS FOR THE RECORD

DeFazio, Hon. Peter A., A Representative in Congress for Oregon, 
  Letter, Herbert J. Schmidt, President and CEO, Contract 
  Freighters Inc., March 9, 2007.................................    19
 Gillan, Jacqueline S., Vice President Advocates for Highway and 
  Auto Safety:
  U.S. Department of Transportation handout, March 2007..........    89
  Transcript from the Senate Commerce, Science and Transportation 
    Committee hearing on the nomination of Mary Peters to be 
    Secretary of the Department of Transportation, September 20, 
    2006.........................................................    91
  List prepared by Advocates for Highway and Auto Safety on the 
    Federal Motor Carrier Safety Administration's legislated 
    rulemaking actions and studies, and additional agency actions   156
  Report from Advocates for Highway and Auto Safety: The Federal 
    Motor Carrier Safety Administration: A Failed Agency.........   182
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  U.S./MEXICAN TRUCKING: SAFETY AND THE CROSS-BORDER DEMONSTRATION 
                                PROJECT

                              ----------                              


                        Tuesday, March 13, 2007,

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
DeFazio [chairman of the subcommittee] presiding.
    Mr. DeFazio. The Subcommittee will come to order.
    First off, I understand that we will be joined by 
Representative Eddie Bernice Johnson, who is not a member of 
the Subcommittee. But I would ask unanimous consent she be 
allowed to sit with the Committee. Hearing no objection, that 
will be allowed on a timely basis.
    Today's hearing of the Subcommittee on Highways and Transit 
is to examine the issue of a pilot program to allow 100 Mexican 
trucking companies free access to the entire continental United 
States. I have a number of grave and ongoing concerns about 
this program that hopefully will be in part addressed today. 
Then again in part, they may not, and it may require further 
action by this Committee.
    After having a meeting yesterday pertaining to this 
hearing, just out of idle curiosity I went online to Google and 
I Googled the word ``mordedura,'' which means the bite, which 
means essentially bribes. And as someone who has long been a 
student of Mexico and speaks very little and very bad Spanish, 
but understands a good deal about the country, they do not have 
the same system and respect for laws as we do, they have 
different traditions. In that country, it is rampant and 
widespread among minor and not so minor government officials 
that bribery is a way of doing business.
    I have concerns that if we are accepting a paper program, a 
paper program that certifies drug and alcohol testing, a paper 
program that certifies the hours of service, that we are 
accepting their commercial driver's licenses, that if we are 
basing it on a government-to-government negotiation, with the 
understanding that they have the same sort of enforcement of 
laws down to those levels in the bureaucracy, I think we are 
sadly mistaken. So that leads me to believing that we need to 
have some additional levels of trust. And trust would come 
through a rigorous pilot program. The program is already skewed 
by cherry-picking the Mexican trucking companies.
    But we want to know that even though we are cherry-picking 
and even though hopefully they will have their best drivers and 
trucks online, that we are checking to see that they are indeed 
truly conforming. I would hope that testimony is delivered 
today that relieves some of my anxiety in those areas.
    Then beyond that, quite truthfully, I have an interesting 
advisory from the State Department, there is some concern 
expressed on the Senate side that Mexico isn't immediately 
giving reciprocity to American trucking companies which is of 
course fairly extraordinary. But secondly, American trucking 
companies don't want to drive in Mexico, again, the problem of 
lack of laws and enforcement of laws. There is an advisory from 
the State Department saying commercial trucks from the U.S. 
should stay out of Mexico, you are likely to be hijacked or 
otherwise shanghaied down there.
    So this just sort of reinforces my view, which goes to some 
of these other regulatory regimes that we are adopting. But 
ultimately what I see really is the agenda here, and I must 
disclose I voted against NAFTA, is that this is a way to 
displace American labor. Yet once again, with marginal if any 
benefit to American consumers, by some minuscule reduction in 
the price of cheap goods that were manufactured in China or 
Mexico and then imported into the United States to a middle 
class that doesn't exist any more.
    Having a well-paid, well-trained, well-regulated trucking 
industry and truck drivers benefits our society as a whole. And 
what I see as the grand vision here is that we will develop 
ports in Mexico, the junk will be made in China, shipped there, 
we can avoid the longshoreman's union and not pay a living wage 
to people unloading the ships. Then we can load it onto trucks 
that will drive it from there into the United States with 
workers who are again not paid a living wage and may have a 
host of other problems inherent in that.
    So that is sort of the longer term vision to be realized 
here. I am not inclined to support this in any way, but I am 
going to be particularly rigorous in looking at protecting 
public health and safety, because I am not going to sacrifice 
public health and safety for a non-existent economic benefit.
    With that, I would recognize the Ranking Member.
    Mr. Duncan. Thank you, Mr. Chairman, for calling this 
hearing today to listen to testimony on the Department of 
Transportation's new cross-border demonstration project. The 
safety of trucks coming into the U.S. across the Mexican border 
has been of concern and it is one that has been of concern to 
this Committee for quite a few years. Since the opening of the 
border to truck traffic appears eminent, it is very important 
for this Committee to stay engaged and ensure that the border 
opening is handled properly with the safety of American 
motorists as our top priority.
    At the time NAFTA was passed, a sizeable majority of people 
in my district were in favor of it. I feel certain that if 
NAFTA was up today, a sizeable majority would be opposed to it. 
I am concerned that treaties like NAFTA essentially want to do 
away with our borders and with Mexico and Canada and merge us 
into a North American Union. I am greatly opposed to this and 
want to protect U.S. political and economic sovereignty.
    Although I do have concerns about NAFTA, it is the law. It 
is important that the U.S. follow international law, especially 
laws we have entered into willingly. But compliance with NAFTA 
does not necessarily mean we open the border without any 
scrutiny of the process.
    This Committee should actively review DOT's plan to open 
the border and should revisit the demonstration plan once it 
has been initiated to evaluate its effectiveness. It is 
imperative that Mexican trucks and truck drivers be as safe as 
U.S. trucks and drivers. And safety is really the only thing 
that this Subcommittee can fairly look at, although I do have 
concerns like the Chairman about American jobs.
    It is of concern to me, that as I understand it, there's 
about 160 or so Mexican trucking companies who are already 
interested in this, but only, I understand, two American 
trucking companies wanting to go the other way. It seems to me 
if we are going to do something like this, it needs to be done 
in a fair way, I would say a tit for tat way. And we should let 
one Mexican trucking company in for every American trucking 
company that wants to go and gets permission to go into Mexico.
    I know, too, that there legitimate safety concerns. I have 
had complaints over the years about Mexican drivers, uninsured 
drivers who have hit and seriously injured constituent of mine. 
My home State of Tennessee recently put in a requirement that 
while not requiring people to be necessarily fluent in English, 
they have included a test to make sure that drivers can at 
least read the road signs. So we need to think about things 
like that as well.
    But I thank you very much for calling this hearing. It is 
important that we look into this from every aspect that we are 
allowed to do. Thank you.
    Mr. DeFazio. I thank the gentleman for his statement. Are 
there other opening statements?
    Yes, Mr. Holden.
    Mr. Holden. Just briefly, Mr. Chairman, I wanted to thank 
you for conducting this hearing today. I look forward with 
interest to hearing from our witnesses.
    A few years ago, when Mr. Petri was chairman of this 
Subcommittee, I traveled with him and a few other members to 
San Diego and to Laredo and was just absolutely shocked at the 
failure rate of the truck drivers and the trucks coming into 
the Country with lack of insurance, lack of conformation of 
registration. And in the maintenance failures of the brake 
systems and numerous other aspects of the vehicle.
    So it was an absolute failure when I was on the ground 
looking at it a few years ago, and I am just curious if there 
has been any progress made since then. So Mr. Chairman, thank 
you for conducting this hearing.
    Mr. DeFazio. I thank the gentleman for his succinct 
statement.
    Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman, Mr. Duncan. I 
appreciate your calling this hearing. I will say very briefly, 
Mr. Chairman, this hearing has generated much interest in my 
district. I have received several telephone calls expressing 
concern about this. I appreciate your having called the 
hearing.
    Mr. DeFazio. Thank you, Mr. Coble. Mrs. Napolitano.
    Mrs. Napolitano. Ditto on all the remarks, Mr. Chairman. 
California has always had a longstanding issue with allowing 
trucks into our area. I look forward to clarification of a lot 
of the issues at this hearing.
    Thank you, Mr. Chair.
    Mr. DeFazio. I thank the gentlelady for her extraordinarily 
succinct statement. I see no other opening statements. We can 
proceed with the witnesses.
    I believe either Mr. Hill or Mr. Shane or are both going to 
testify? Mr. Hill, okay, and you are doing backup today, is 
that it?
    Mr. Shane. Yes, Mr. Chairman.
    Mr. DeFazio. Mr. Hill.

TESTIMONY OF THE HONORABLE JOHN H. HILL, ADMINISTRATOR, FEDERAL 
MOTOR CARRIER ADMINISTRATION, ACCOMPANIED BY: JEFFREY N. SHANE, 
    UNDER SECRETARY FOR POLICY, UNITED STATES DEPARTMENT OF 
TRANSPORTATION; THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR 
      GENERAL, UNITED STATES DEPARTMENT OF TRANSPORTATION

    Mr. Hill. Thank you, Mr. Chairman.
    Chairman DeFazio, Ranking Member Duncan and members of the 
Subcommittee, thank you for inviting me today to discuss the 
Department of Transportation's demonstration project to 
implement the trucking provisions of the North American Free 
Trade Agreement, NAFTA. I am pleased to describe to you what 
the Department has done to implement Section 350 of the fiscal 
year 2002 Appropriations Act and the additional steps we have 
taken to ensure that we safeguard the safety and the security 
of our transportation to work even as we strengthen trade with 
a close neighbor and important trading partner.
    As Secretary Peters announced on February 23rd, the U.S. 
and Mexican governments have agreed to implement a limited, 
one-year demonstration project to authorize up to 100 Mexican 
trucking companies to perform long-haul international 
operations within the U.S. and 100 U.S. companies to do the 
same in Mexico for the first time ever. These companies will be 
limited to transporting international freight and will not be 
authorized to make domestic deliveries between U.S. cities. It 
is also important to note in the demonstration project there 
will be no trucks authorized to transport hazardous materials, 
no bus transportation of passengers, and no authority to 
operate longer combination vehicle on U.S. highways.
    The program will meet, and in some cases exceed, the safety 
requirements that Congress included in Section 350. For 
example, Section 350 requires the Federal Motor Carrier Safety 
Administration to perform 50 percent of all pre-authority 
safety authority audits of Mexican trucking companies at the 
company's headquarters in Mexico. In fact, for the duration of 
this program, FMCSA will perform 100 percent of these audits on 
site. That means the U.S. inspectors will have eyes on and 
hands on access to all of a company's records, equipment, and 
personnel as we are determining whether that company has the 
systems in place to meet Section 350 requirements.
    And the members of this Subcommittee know that Section 350 
includes a very comprehensive set of requirements to ensure 
that long haul Mexican trucks and drivers operate safely in the 
U.S. For example, Section 350 requires all Mexican drivers to 
have a valid commercial driver's license, proof of medical 
fitness, and verification of compliance with hours of service. 
They must be able to understand and respond in English to 
questions and directions from U.S. inspectors must undergo drug 
and alcohol testing, and cannot be under the influence of drugs 
or alcohol.
    All trucks must be insured by a U.S.-licensed insurance 
company and must undergo a 37 point safety inspection at least 
once every 90 days. Section 350 also requires all long haul 
Mexican trucks to have a distinct DOT number, so that they will 
be easy to identify by Customs and Border Protection officers, 
FMCSA, State inspectors and more than 500,000 State and local 
law enforcement officials. We are working closely with our 
partners in the States to ensure they understand the parameters 
of the program and are able to enforce the law effectively.
    Finally, in addition to the Federal Motor Carrier safety 
requirements, the Mexican trucks operating in the demonstration 
project will be required to adhere to the same State 
requirements as U.S. trucks, including size and weight 
requirements, and pay the applicable fuel taxes and 
registration fees. It is also important for us to bear in mind 
that trucks from Mexico have always been allowed to cross our 
southern border. Every day drivers from Mexico operate safely 
on roads and major U.S. cities like San Diego, El Paso, Laredo, 
and Brownsville. Every day, Federal and State inspectors ensure 
trucks are safe to travel on our roads. And our records show 
that Mexican trucks currently operating in the commercial zone 
are as safe as the trucks operated by companies here in the 
United States.
    We have developed this limited program to demonstrate to 
you, the Congress, and to the traveling public that we will be 
able to implement Section 350 successfully to allow Mexican 
trucks to operate safely beyond the commercial zone. Thank you 
for the opportunity to appear before you today. I look forward 
to working with you to create new opportunities, new hope, and 
new jobs north and south of the border, while continuing to 
ensure the safety of North American roads. Under Secretary 
Shane and I would be happy to answer your questions.
    Mr. DeFazio. Thank you for your testimony.
    With that, we would turn to the Inspector General, Mr. 
Scovel.
    Mr. Scovel. Mr. Chairman, Ranking Member Duncan and members 
of the Committee, thank you for the opportunity to testify 
today as you evaluate the safety of cross-border trucking with 
Mexico under the provisions of NAFTA. We appreciate the 
Committee's interest in the demonstration program that will 
expand the reach of Mexican cross-border trucking.
    Our role, as established in the fiscal year 2002 
Transportation Appropriations Act, is to review eight specific 
criteria and provide the results to the Secretary. We will 
continue to work with the Department as the demonstration 
program progresses, consistent with our responsibility to 
preserve our independence and objectivity as we conduct our 
annual audits under the fiscal year 2002 Act and as we respond 
to your requests that we audit the demonstration program.
    We have issued seven reports on border safety since 1998 
and will issue an eighth report shortly. Today I would like to 
address four key issues concerning cross-border trucking with 
Mexico. First, we have seen significant progress in border 
safety in recent years. We have visited 27 large and small 
border crossings, some multiple times, and found that FMCSA had 
in place the staff, facilities, equipment and procedures 
necessary to substantially meet the criteria set forth in the 
Act.
    For example, the number of Federal Motor Carrier 
enforcement personnel, including inspectors, has jumped almost 
20-fold since 1998, from 13 to 254. In addition, the number of 
Mexican trucks taken out of service after inspection declined 
by about half, from 44 percent to 20 percent, a rate comparable 
to that of American trucks. Further, all States can now take 
enforcement action when necessary against Mexican trucking 
companies, a significant improvement over 2003, when only two 
States had this capability.
    Second, we have concerns about the completeness of the data 
in the so-called 52nd State system. This is a data repository 
set up by FMCSA for traffic convictions of Mexican commercial 
drivers while operating in the United States, and is needed to 
allow U.S. officials to bar Mexican drivers from operating here 
for the same offenses that would bar U.S. drivers. We have 
found reporting problems and other inconsistences with this 
system at the four border States.
    In one example, data reported by Texas showed a steep 
decline in traffic convictions between January and May 2006. 
When we brought this to FMCSA's attention, it turned out that 
Texas had stopped reporting this data. After developing an 
action plan with FMCSA, Texas subsequently eliminated a backlog 
of some 40,000 Mexican commercial traffic convictions.
    To its credit, FMCSA has acted quickly to work with the 
States to correct these issues. Strong follow-up action or 
interim solutions will be required, however, especially as 
Mexican carriers begin to operate more extensively beyond the 
border States.
    Third, we have two observations regarding FMCSA's 
demonstration program expanding cross-border trucking with 
Mexico based on our past and current work. One, FMCSA will need 
to ensure that it has an effective screening mechanisms at 
border crossings. Hundreds of trucks enter the Country from 
Mexico each day at large volume crossings. While the law 
requires 50 percent of Mexican driver's licenses to be checked, 
FMCSA has announced a standard of every truck, every time. This 
will not always be easy. A driver must first be identified, in 
this case by an X, appearing after the DOT number that is 
present on the side of all interstate trucks. In instances that 
we have observed, the driver is then taken out of line for a 
license check by FMCSA staff. This process could be streamlined 
if FMCSA enforcement personnel work collaboratively with the 
Customs and Border Protection Service.
    Two, FMCSA will need clear objectives and measures of 
success. In order to assess performance and risk, the agency 
must have meaningful criteria, especially if it wants to 
consider opening the border to greater numbers of carriers in 
the future. To date, we have seen no details on how the 
program's success will be evaluated.
    In summary, Mr. Chairman based on our work over the past 
eight years, we see continual improvement in the border safety 
program along with a willingness by the parties involved to 
solve problems once identified. Some areas need and are 
receiving the proper attention. We will continue to audit the 
cross-border trucking program, report on its progress and 
address the specific concerns of this Committee.
    This completes, my statement. I would be happy to answer 
any questions that you or other members of the Committee may 
have at this time.
    Mr. DeFazio. Thank you. Thanks for your report and your 
testimony.
    I will begin the questions with Mr. Hill. I guess my first 
question is quite broad, but you're referring to this as a 
pilot program. It has to do with safety of motor carriers, 
commercial motor vehicles, driver safety. My reading, and I am 
not a lawyer, but by my reading of the law this seems to have 
been anticipated in the Transportation Act for the 21st 
Century, TEA-21. It sets out requirements to follow if you are 
conducting a pilot.
    How is it that the Administration feels they are exempt 
from this law? Because this so-called pilot does not meet those 
guidelines. It is our understanding nothing has been published 
in the Federal Register, no public comment except on individual 
carriers from Mexico, has been solicited. It is not a three 
year program. There is a whole long list of failings regarding 
pilot programs. Do you have legal counsel, have they informed 
you that you are exempt from this law?
    Mr. Hill. Mr. Chairman, we have addressed that with legal 
counsel. If you are referring to Section 4007 of TEA-21, the 
language that is given there specifies how we are to conduct a 
pilot program when it give relief from or alternatives to the 
safety regulations. In this particular instance, there is no 
attempt to deviate from our current regulations. There is no--
----
    Mr. DeFazio. Where is the language? I have the law. Where 
is the language relating to innovative approaches to motor 
carriers, commercial motor vehicle and driver safety may 
include, may include exemptions from a regulation prescribed 
under this chapter as--et cetera. I don't see that language 
that you are quoting from legal counsel in the statute. Is this 
inferred or are you actually quoting statutory language?
    Mr. Hill. I believe that there is a reference there to 
having to give relief from or alternatives to the existing 
safety regulations. We are not giving any relief here or any 
alternatives. We require them to qualify.
    Mr. DeFazio. I beg to differ. It is certainly an 
alternative. We are having a foreign government basically 
assess whether or not their truck drivers are meeting U.S. 
requirements for public health and safety relating to drug 
testing, hours of service, vehicle safety, driver licensing. 
How can you argue that that isn't------
    Mr. Hill. Mr. Chairman, we are going to be handling them 
just like we do Canadian carriers in our ongoing safety regimen 
now. We are verifying that they are in compliance with U.S. 
regulations, not in compliance with Mexican regulations. We are 
verifying that they comply with U.S. law. And so our------
    Mr. DeFazio. We will follow up on that issue regarding your 
statutory authority. Let's go to the program itself.
    The allegation is this is a ``pilot,'' i.e., we are going 
to demonstrate something. And it is not a permanent and full 
opening of the board of the United States. Yet I do have a copy 
of the initial agreement, and I believe Mr. Shane participated 
in this process. It sets out three things. First stage, six 
months, we let the Mexicans in. Second stage, six months, U.S. 
companies that want to have their trucks hijacked will be 
allowed to go into Mexico.
    Third stage, we get at the end of the 12 month period, in 
which a full and permanent opening of the border is foreseen, 
and new carrier operations being appropriated normal operating 
authority procedures of each country. Have we already reached 
the conclusion that that at the end of 12 months we are opening 
the border? It says foreseen. To me that is, it is not like 
there will be an evaluation that will take a certain period of 
time, there will be a report to Congress, whatever. It is 
foreseen that we will fully open our border.
    Mr. Shane. Mr. Chairman, may I answer that question? 
Because as you pointed out, I was privy to those conversations. 
Number one, that document is a record of consultations, it is 
emphatically not an agreement. We did not establish any 
international obligations beyond those established in NAFTA. 
The objective of that document was simply to write down the 
mechanics of what the two countries contemplated we would do in 
the demonstration program.
    The third element of it, as you have suggested, is the 
normalization of relations between the U.S. and Mexico in 
trucking. It was an aspiration that we included in the record 
of consultations.
    Mr. DeFazio. Right. But here is the question. What is going 
to happen at the end of 12 months? We have had exchanges 
before, and I do enjoy it. But we don't have a tremendous 
amount of time and I want to accommodate other members. As I 
said before, you should work for the State Department, I think 
you would be a great diplomat. But let's get to the bottom 
line. What happens at the end of 12 months? Are we going to put 
into abeyance the existing rights of the 100 companies. Since 
it is on a rolling 18 month basis, it sounds unlikely, it 
sounds like we are already extending people beyond the 12 
months. Is there going to be a suspension of further approvals 
while there is some sort of real, deliberative, evaluative 
process.
    What is going to happen at the end of 12 months? This says 
it foresees full border opening. What is the U.S. position? 
What mechanics, what will happen at the end of 12 months, plain 
and simple. I'm a simple guy. So what are we going to do at the 
end of 12 months?
    Mr. Shane. We will conduct an evaluation in concert with 
both the Inspector General and a panel of experts that the 
Secretary of Transportation will commission for the purpose of 
delivering objective advice to us about how the program has in 
fact------
    Mr. DeFazio. Objective advice. These will be people named 
by the Secretary, who has implemented, authored the program, 
which hasn't been publicly noticed or comment on. And she's 
going to really objectively choose objective people who are 
going to really objectively evaluate what really happened.
    Mr. Shane. Precisely------
    Mr. DeFazio. And there is going to be further consultation 
with the Congress on this?
    Mr. Shane. I am sure there will be consultation with 
Congress, not just at the end, but the Secretary has herself 
promised that the Congress will be informed as the program is 
unfolding, not merely at the end. The members of the panel, I 
apologize, I am not in a position to scoop the Secretary on any 
announcements about the individuals, but I think when you see 
the individuals, you will conclude that they are precisely as 
you have described, that they are objective and they are 
independent and they will provide objective advice.
    Mr. DeFazio. Well, I hope that is the case. I thank you for 
that, but again, I am concerned that it is essentially a 
foregone conclusion that you have to get this done before this 
President leaves office, and you don't have a lot of time left. 
So I am very concerned that this is a foreordained conclusion.
    Let me go to one specific that I raised with the 
Administrator yesterday and see if he has an answer. I know 
that the IG might have something to say about this. The IG 
expressed concern about their drug testing. Basically, there 
are no certified labs in Mexico. There is no assurance of chain 
of custody. And there are tremendous concerns, given anecdotal 
evidence, that it is commonplace, absolutely commonplace, that 
the abused truck drivers of Mexico frequently abuse substances 
to stay awake during very long hauls, because there are no 
hours of service within Mexico, but somehow magically we are 
going to have hours of service when they come across our 
border. They are being abused to the point of driving 2,500 
kilometers, no relief, being told to get there in a certain 
period of time, and they are using drugs.
    Now, I am very concerned that those same people are going 
to be pushed across the border into the United States. I want 
to know, there are two things. One is, I am not willing to 
accept that somehow this Mexican trucking company down there is 
taking the samples in a secure way from the right people and 
shipping them to the United States to be analyzed. They could 
have one guy who is giving the samples. So that is a concern.
    I want to know, is there going to be a safeguard? Are we 
going to test a certain percentage of these drivers at the 
border to make sure that this drug testing program is real and 
there are no problems?
    Mr. Hill. Mr. Chairman, we are going to work with the 
Mexican carriers to make sure they comply with drug and alcohol 
requirements the same as U.S. carriers and Canadian carriers. 
As I told you yesterday, the Canadian carriers do not have drug 
testing.
    Mr. DeFazio. Right. Again, we had this discussion 
yesterday, and I have already gone through the careless 
disregard for the law in Mexico and the fact that these are not 
things that are commonly accepted in Mexico and it is not 
likely that, being assured--I am not assured. Will you require 
a certain percentage of the people in this pilot program, it is 
a pilot program and we would want to verify that it is working, 
to take drug tests at the border, yes or no?
    Mr. Hill. During this demonstration project------
    Mr. DeFazio. Is it yes or no, and then we can get to the 
number?
    Mr. Hill. All four of the companies that we have audited 
have said that they are going to do their collections in the 
United States.
    Mr. DeFazio. They are going to do their collection------
    Mr. Hill. Their drivers are going to have their specimens--
----
    Mr. DeFazio. They are going to fly their drivers up here or 
drive them up here?
    Mr. Hill. I don't care how they are going to do it, but 
they are going to do it in the United States. Secondly------
    Mr. DeFazio. I still would like to know that we are going 
to do some sort of random testing of these people at the 
border. Didn't the IG report on the problems with the chain of 
custody here and concerns about the program?
    Mr. Scovel. Thank you, Mr. Chairman. I have expressed in 
testimony previously our concern with specifically the 
collection process used to produce Mexican specimens for 
analysis in the United States labs. Much attention has been 
focused on the lab question, and it is true, Mexican specimens 
need to be examined here, because there is no certified lab in 
Mexico.
    However, based on my long experience with the U.S. 
military's drug prevention and detection effort, I can say that 
we have had minimal problems with our laboratories. We had, 
regrettably, more extensive problems with the integrity of the 
collection process, including some ingenious schemes by service 
members to subvert or defeat the collection process. If this 
Committee were to ask my office to verify that the agreement 
which the U.S. and Mexican governments entered into in 1998 
that calls for drug collection processes in Mexico to be 
equivalent to those in the United States, it would be difficult 
for my office to produce an opinion unless we were allowed into 
Mexico to examine their process.
    Now, if the current procedure envisions Mexican drivers 
entering this Country and producing samples here, then my 
office would be in a much better position to examine the 
process and to provide an objective opinion back to the 
Committee.
    Mr. DeFazio. Thank you. My time has expired.
    Mr. Ranking Member.
    Mr. Duncan. Thank you, Mr. Chairman.
    Before I begin my questions, I have been asked by Ranking 
Member Mica, who is apparently not going to be able to make it 
here, to request unanimous consent that his statement on this 
issue be placed into the record, and also to ask unanimous 
consent that statements and questions be permitted to be 
submitted for the record from any member. I ask unanimous 
consent.
    Mr. DeFazio. Without objection.
    Mr. Duncan. Thank you very much.
    Administrator Hill, I was very impressed by the precautions 
such as insurance and other requirements that you are going to 
put in on these Mexican trucking companies. And I was very 
impressed by Inspector General Scovel's report. I have heard of 
a lot of testimony from inspectors general, most of which has 
been very critical of the departments that they are inspecting. 
But most of what he said is there had been some great 
improvements and your agency has done some really good work.
    But I was told that there was an associated press article 
recently in which a National Transportation Safety Board member 
said that since only a very tiny percentage of the hundreds of 
thousands of U.S. truck companies are inspected every year, 
does your agency have the resources and the staff to really 
inspect all these carriers in Mexico and on the border, while 
maintaining all that you are required to do in regard to the 
U.S. trucking companies?
    Mr. Hill. Thank you, Congressman, for that question. I 
would just simply say to you a couple of things. First of all, 
when the Section 350 Appropriations Act was put in place, there 
was not only a very specific set of guidelines given to us to 
follow, but there was also funding that allowed us to hire 
dedicated resources, human resources, to deal with the 
requirements of Section 350.
    So we have dedicated personnel that all they do is deal 
with the border issues. For example, the number of inspectors 
that we have along the border is not representative of what we 
have anywhere else in the Country. The vast majority of 
commercial vehicle safety at the roadside is done by our 
dedicated State and local and law enforcement partners. I think 
you are going to hear from one of those members in the second 
panel. We work with the more than 13,000 State inspectors that 
do commercial vehicle inspections all throughout this Country. 
So the people that are dealing with this particular issue along 
the border are dedicated, and that is their only job, is to 
deal with Mexican trucking related matters along the border.
    So I would take issue that we are diverting resources. In 
fact, the statute very clearly says that we are forbidden from 
taking resources from within the agency and dedicating them to 
this Mexican trucking enforcement protocol. So I believe that 
we have the adequate resources to deal with this.
    Mr. Duncan. All right. Let me ask you something else. You 
heard in my statement that there's just a lot of concern all 
across this Country about the trade imbalance that we have. I 
was told yesterday, as I mentioned, that there are 160 Mexican 
trucking companies that want to come in here under this 
demonstration project and only 2 U.S. carriers have applied for 
operating authority in Mexico. Are those figures accurate, and 
if so, are you going to do something to try to encourage more 
U.S. trucking companies? And thirdly, is this some sort of real 
high priority so you are going to feel pressure to hurry up and 
approve all these 100 Mexican companies to qualify for this 
program?
    Mr. Hill. The numbers that you cited, I am aware of the 
Mexican applications that we have in place, but I am not aware 
of all the U.S. interests. I have heard the number two, I have 
also heard the number six. I don't think the number is very 
high.
    We are not going to rush through this inspection process, 
this safety process. One of the reasons why we are starting 
with 100 carries is to give us an opportunity to demonstrate to 
the Congress and to ourselves to make sure that we are going to 
have the safety protocols that are adequate in place before we 
would ever look at anything any larger. And there needs to be 
an evaluation not only of what goes on in Mexican carriers but 
we are also going to be evaluating whether or not Mexico 
affords equal treatment to our carriers wanting to go south.
    So part of the demonstration project is to make sure that 
their process is transparent, allowing American trucks to apply 
and to receive operating authority and to be allowed to operate 
in the same manner that we allow their trucks to operate in 
this Country.
    Mr. Duncan. Well, I will say once again, I am sure it won't 
be done this way, but I think we should approve a Mexican 
company for each American company that wants this authority in 
Mexico.
    Let me ask you this. A little over a year or so ago, I went 
to a very sad funeral in my district for four young people from 
Crown College, a small Christian college in my district, who 
had been, those four young people were on a mission trip to 
Florida. And they were killed in a very horrible wreck by a 
Mexican truck driver.
    What I would like to know is this: How are we going to be 
able to determine whether these Mexican truck drivers, how are 
we going to know whether they have a safe driving record in 
Mexico? How are we going to know that we are not allowing truck 
drivers in here that, the Chairman mentioned some concerns 
about the drug problems of some of these drivers. The drug 
problem, that is certainly a concern. But also the safe driving 
record, how do we verify this with these Mexican companies? I 
understand that some of these records in Mexico are really not 
that good.
    Mr. Hill. Congressman, when we look at the commercial 
driver's license record, our inspectors daily are making CDL 
checks, commercial driver's license checks in the commercial 
zone. We do about 20,000 of those every month. So we are 
querying the Mexican Licencia Federale data base. It is called 
LIFIS, and it is an information similar to our own in terms of 
its electronic capacity. So our inspectors are verifying driver 
history records and we know that there are driver 
disqualifications occurring, because we are finding them now in 
the commercial zone.
    Mr. Duncan. So in other words, you think that their records 
system there is just as good as ours?
    Mr. Hill. I do not know; I have not seen the details of 
their system. I know that we were required to have a system in 
place and to make sure that we could account for violations for 
drivers operating in the United States. That piece I am sure 
about. I am not as confident about the Mexican LIFIS system. I 
do not know the details of it.
    Mr. Duncan. All right, I am going to forego any other 
questions, so we can get to other members. Thank you very much.
    Mr. Hill. Yes, sir.
    Mr. DeFazio. I thank the Ranking Member.
    We will go in the order that people arrived at the 
Committee. Mr. Holden?
    Mr. Holden. Thank you, Mr. Chairman.
    Administrator Hill, I heard what you just said about not 
being able to verify the Mexican system. But I can tell you, as 
I mentioned in my opening remarks, I have visited San Diego and 
Laredo. Mr. Filner, who just stepped in a moment ago, it is his 
district, that San Diego crossing. I can tell you that they 
couldn't check the records in Mexico. They are hooked up to a 
system in Mexico City that basically was a failure. If you 
count the minor, major violations plus the situations where 
they were not able to verify one way or the other, it is almost 
100 percent of failure at that time, just a few short years 
ago.
    So if we are going to rely on the Mexican system for 
verification and trust them, I don't believe there is any 
accuracy for it, unless they have come a long way baby in the 
last few years. So I know you might not have anything further 
to add to what you just said to Mr. Duncan's question, but I 
don't have any faith in their system, based on being their 
first-hand and looking at it.
    That deals with the registration and the licensing and the 
insurance, maybe personal information on the driver. But I 
think you mentioned this in your opening remarks, how are we 
going to physically test the vehicles? Is it going to be tested 
in the U.S. or are we going to trust Mexican inspectors for 
that as well?
    Mr. Hill. Congressman, we are going to do two different 
regimens for verification of the vehicle safety. When our 
inspectors, FMCSA inspectors, go south into Mexico and do the 
pre-authority safety audit, a pre-authority safety audit is 
something we are required to do by Section 350 before any kind 
of operating authority is granted to a Mexican carrier. During 
that pre-authority safety audit, we will be inspecting every 
one of the trucks that is anticipated to be used in this long-
haul operation.
    For example, the very first pre-authority safety audit that 
we did, the trucking company had 37 tractors. But he was only 
going to dedicate five of them, and trailers, to the long haul 
operation. So we are recording what vehicles those are, and we 
are going to physically inspect every one of them to make sure 
they are in compliance with U.S. laws and regulations. Then if 
they pass, we will affix a safety decal which will then 
indicate to us that the vehicle has met safety standards.
    Mr. Holden. You said that the project is going to inspect 
50 percent of the traffic, is that the goal?
    Mr. Hill. The law requires us to inspect 50 percent of the 
traffic, but we are going to be inspecting 100 percent of the 
carriers involved in this demonstration project.
    Mr. Holden. And how many vehicles, how many crossings are 
we talking about?
    Mr. Hill. I'm talking specifically now about the pre-
authority safety------
    Mr. Holden. The authority, okay.
    Mr. Hill. When we go into the--we are going to do 100 of 
those. Then at every one of the border crossings, when those 
vehicles cross into the U.S., we will be looking for that 
vehicle through a specific designator. It has an X designation 
on the side of the truck. Then we are going to be working with 
DHS to make sure that we have access to their information, so 
that when we know one of these carriers is in the queue, we can 
pull that vehicle out of line and make sure it is inspected at 
the border.
    Mr. Holden. So after pre-approval, the scrutiny will, what 
level of scrutiny will there be, or are we just going to trust 
that there has been no change in the vehicle, no changing of 
plates, no changing of i.d. numbers?
    Mr. Hill. Every vehicle that we see that is a long haul 
Mexican truck, we are going to be making sure they have a 
safety decal on it, which would indicate they have been through 
an inspection.
    Mr. Holden. I understand.
    Mr. Hill. Then we are going to be looking at the license 
for that particular driver, to make sure that it is in 
compliance. Now, the law requires us to do 50 percent of those. 
But we are going to be checking each one of them at the border, 
when they enter the Country, for this demonstration project. 
That is the goal.
    Mr. Holden. I understand, Mr. Administrator, and I 
appreciate your testimony. But I am telling you, after being 
there, I am very, very skeptical.
    I yield back, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. It is good to have you 
all with us today.
    Mr. Hill, I am going to ask you a simplified question, and 
I may be amplifying my ignorance in doing it. But what is the 
primary purpose in the cross-border demonstration project?
    Mr. Hill. The primary purpose, sir, is to fulfill our NAFTA 
obligation, which has been delayed now for several years, and 
to make certain that our processes in place meet the 
requirements of Section 350 of the Appropriations Act, to 
ensure that we have safe operation of those vehicles coming 
into the Country.
    Mr. Coble. Currently, Canadian trucks travel into the U.S., 
hauling international loads, do they not?
    Mr. Hill. Yes, sir, that is correct.
    Mr. Coble. How do Canadian trucks and drivers measure up in 
the U.S. safety-wise?
    Mr. Hill. In the year 2005, the typical out of service rate 
for a Canadian vehicle was 13 and a half percent, which was 
lower than what the out of service rate is for the U.S. 
carriers. I can explain out of service rate if you would like 
me to go into a little more detail.
    Mr. Coble. If you would.
    Mr. Hill. Okay. Whenever we do this inspection that we have 
been referring to in our testimony and in answer to questions, 
if a violation is found that is so serious that we can't allow 
the safety to be ensured by moving the vehicle or the driver, 
it is rendered out of service. It can't move until the driver 
violation or the vehicle violations are fixed. So the rate at 
which we found those violations with Canadian carriers was 13 
and a half percent in 2005.
    Mr. Coble. So as well or better that our trucks and drivers 
perform, I presume?
    Mr. Hill. Yes. The out of service rate for U.S. vehicles in 
2005 was 21 and a half percent.
    Mr. Coble. Mr. Hill, what actions will the FMCSA take when 
the pilot programs have been concluded?
    Mr. Hill. As the Under Secretary indicated in his response 
to the Chairman a moment ago, we are going to be evaluating 
whether or not there are adequately safety protocols in place 
and being followed. In other words, are the requirements in 
Section 350 working as we anticipated that they are supposed to 
work, and then we are going to be making reports on that, as he 
indicated, to Congress and other places to ensure that we have 
fulfilled our requirement under the law before we would proceed 
on it.
    Mr. Coble. Will U.S. operations in Mexico be evaluated as 
well?
    Mr. Hill. The purpose of the bi-national monitoring group, 
I don't know whether you have heard this reference, but there 
is a team of people in Mexico and a team of people in the U.S. 
that are going to be working together to make sure that we 
remove any kinds of impediments or obstacles to allowing this 
process to go forward. We will be making sure that U.S. 
carriers going south are giving proportionate treatment and we 
will be evaluating how well that is being done.
    Mr. Coble. And will the Mexican officials respond in a 
similar way?
    Mr. Hill. We have assurance from both the Secretary of SCT, 
the Secretary of Communication and Transport, and their staff, 
that they will work with us on this endeavor, yes.
    Mr. Coble. I thank you, sir. I yield back, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. I am listening 
with great interest, because I sat on California Transportation 
Commission at the State level for six years. This had come up 
then. It really hasn't changed a whole lot in terms of the 
questions. Now, whether the fixes have been there, I don't 
know. But I can go into another area, because I have some 
knowledge of some of our American companies losing loads in 
Mexico.
    Now, is there anything that will help our drivers, our 
U.S., if they are able to contract going into Mexico to assure 
their safety and the safety of their cargo? Because I can name 
you one company that's lost billions of dollars in cargo theft 
in Mexico, coming up to deliver to the U.S., it is a major 
company. There is no help from the Mexican side.
    Now, that said, there are other issues that I have and I 
want to ensure that we don't bypass some of the inherent issues 
that we have. I was born and raised in a border town, I travel 
to Mexico fairly often. I know some of the issues in dealing 
with the bureaucracy in Mexico in regard to some of the law 
enforcement, et cetera. I have a concern that if we are 
allowing our folks to go into Mexico, will they be as 
protected, or will they have the ability to be able to have 
recourse to assistance from the Mexican federal government to 
assist our companies? That is a big issue for my carriers and 
for some of the businesses that I know.
    Mr. Hill. Thank you, Congresswoman, for that insight. I 
will assure you that we are working closely with the Mexican 
officials and SCT. I think what you are also talking about is 
perhaps another area of the Mexican government in terms of 
protective service and so forth that we are going to be having 
to make sure that we work with them as well through this 
process.
    The Mexican government has committed to us that they want 
to have a proper working relationship of NAFTA on both sides of 
the border. That would imply safety and safe passage, just as 
we are going to be ensuring that on our side of the border. So 
we are committed to working with them on this issue.
    Mrs. Napolitano. Well, I certainly want to talk to you, or 
send you the information so you can look into this one. Because 
it does involve trucking of products sold to the American 
companies for processing by American companies, to be delivered 
in the U.S. and hijacked. The Mexican government has done 
little to nothing on that.
    Mr. Hill. We would be glad to relay that information.
    Mrs. Napolitano. The other questions that I have have to do 
with, in following up on the questions of my colleague, was on 
setting up the inspections on the U.S. side of trucks coming 
in, every single one, on this pilot. Do we have enough trained 
personnel, U.S. employees at those stations to be able to carry 
out those inspections on those trucks? Are you limiting it to 
certain crossings only? How are you setting that up?
    Mr. Hill. Ma'am, one of the points that I want to make sure 
that the Committee understands is that we are going to be 
verifying at the border whether or not the truck has been 
properly inspected. That could imply a safety decal issued by a 
certified inspector that they have already been inspected in 
the last 90 days, what will be verifying at the border.
    But to answer your specific question, back in 1995, we had 
very few staff in place to do this. I think we had a handful of 
people. We now have over 250 FMCSA staff dedicated to border 
inspection and auditing activities. In addition to that, we 
have over 350 to 400 State inspectors along the border. That is 
a large presence to deal with a very limited number of Mexican 
trucks that are coming into this Country for long haul 
operations, 100 carriers and a limited number of vehicles.
    Mrs. Napolitano. Do you differentiate in the training 
between long haul and short haul at the border by the training 
you have given these individuals?
    Mr. Hill. We have done that with our staff, and we are 
working with the State and local authorities to do that as 
well, yes, ma'am.
    Mrs. Napolitano. In regard to the--and I have very little 
time--to the ability of States to be able to have higher 
standards, is that preempted by NAFTA? Higher standards for 
incoming drivers into, say, for instance, California, which has 
higher standards?
    Mr. Hill. The current regime is that when a Mexican carrier 
or driver comes into a State, they must comply with those State 
requirements. So if there are requirements in place that that 
State has, they are going to be required to fulfill those 
requirements.
    Mrs. Napolitano. Will they know those laws in Mexico, so 
they can abide by them? Who is going to give them the training 
to be able to recognize what is expected and required of them 
when they come into U.S. territory for any given State?
    Mr. Hill. Part of our process from the FMCSA side is to do 
some of that education on the front end, during this pre-
authority safety audit. But primarily, we are there to do 
enforcement. We are making sure that the safety protocols are 
in place.
    But I think during that time, we could also be answering 
questions and providing information to them, as you have 
indicated.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. DeFazio. I thank the gentlelady for her questions.
    At this point in the record, I just would insert for the 
record, since she has questions about security, a document from 
Securitas Security Services, USA, which outlines the problems 
of hijacking, 50 truckloads from January of this year up to 
March 7th, and quite a number of U.S. truckloads being hijacked 
and an advisory from the State Department. Again, since in 
part, entering into this agreement with Mexico depends on 
enforcement of the laws. He goes on to say, and this is the 
director of these services, who is monitoring what is happening 
to his companies in Mexico. The Mexican government has not 
become involved yet, because they are considered to be 
outpowered. And these are the people we are going to depend 
upon to enforce the safety and security laws for the American 
public.
    Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chair.
    I appreciate all of you coming today to give us this 
testimony. It is a very important topic.
    I just have a couple of questions, and if I could start 
with Mr. Hill. Being in Oklahoma, we have the NAFTA corridor 
coming up I-35, the middle of our State. I have seen the wear 
and tear that the trucks take on our highway systems. I am just 
curious, if this demonstration project goes through, are there 
any types of fees that the Mexican truck companies will pay to 
help us with the wear and tear on our national transportation 
system?
    Mr. Hill. Congresswoman, the requirement for Mexican 
carriers coming into the Country specifies that they have to 
meet State laws. One of the State laws that is in place is 
something called the International Fuel Tax Agreement, IFTA, 
and that is designed to collect fuel tax to help pay for the 
Highway Trust Fund. Those vehicles will be subject to IFTA 
requirements, they will have to have a decal that is affixed to 
the vehicle for officers to see non-compliance and they will be 
enforced if they are not following it.
    Ms. Fallin. Okay, another question. I know this is to open 
up trade and goods between our two countries. Have we had any 
further economic impact studies that if we have the trucks 
coming through the United States, that will affect our economy 
and trade?
    Mr. Hill. I am primarily a safety person. But I would just 
say to you that in the course of hearing this discussed, we 
believe that it will eliminate bottlenecks at the border, 
thereby increasing efficiency and I think the Chairman even 
referred to that in the opening comments, that there will be 
some measured relief given to the American consumer. So we 
believe that it will have an impact of allowing the free flow 
of commerce between our countries.
    Ms. Fallin. Okay. Then one last question for Mr. Scovel. 
According to the testimony, it says all States have adopted 
operating authority rules. And the States are prepared to 
enforce those safety standards under this program. Will there 
be any extra cost to the individual States for training and 
also for making sure the trucks are in compliance?
    Mr. Scovel. I would like to defer to the Administrator on 
the cost question. My staff has examined the training provided 
by FMCSA to State law enforcement personnel. One of our 
recommendations has been to ensure that that training is 
adequate, so that the local and State law enforcement 
authorities know what they are looking for, and moreover, know 
the data systems, data bases, that they can access in FMCSA, 
pertaining to the specific operating authority of a vehicle.
    Mr. Hill. If I may just add to that in terms of the 
funding, we do have grants in place that we are working with 
the International Association of Chiefs of Police to do 
training as we speak. We are training trainers throughout the 
Country so that they can then do training for their local law 
enforcement. That is money that was provided by the Congress 
and we are using it to make sure that there is adequate 
training in place.
    Ms. Fallin. Thank you very much. We are always concerned 
about unfunded mandates back to our States.
    Mr. Hill. This will not be one.
    Ms. Fallin. Thank you.
    Mr. DeFazio. I thank the gentlelady.
    At this point in the record, in response to a question she 
raised and a response from Mr. Hill, I would submit a letter 
from CF, the Contract Freighters, Incorporated, Herbert 
Schmidt, President and CEO. He points out that we actually have 
an extraordinarily viable and efficient system already of 
dealing with freight from Mexico, that he has agreements with 
Mexican trucking companies. His U.S. certified, U.S. approved, 
U.S. drug tested drivers provide and drive the trailer to the 
border area, they drop it, the Mexican company picks it up, 
takes it into Mexico, likewise coming the other way. So we 
don't deal with this whole issue of the Mexican trucks on the 
U.S. roads.
    So there is already a very efficient way to deal with this. 
He goes on to say that basically no U.S. trucking company in 
their right mind is going to operate in Mexico because of the 
safety and security problems. So I would submit that, without 
objection, into the record.
    [The information received follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. DeFazio. Now we will move on to Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    I come to this hearing from a different perspective, having 
been a truck driver back in the days when you needed a 
chauffeur's license instead of a CDL. I would like to thank the 
Ranking Member about his poignant story about people from his 
district who dealt with the consequences of trucking accidents 
that have a very real concern to me, in light of the 
regulations we are talking about here today. Because one of the 
things we know is that having similar requirements for 
insurance on a Mexican trucking company is a very different 
thing than having that same insurance requirement on a U.S. 
trucking company. Because under the current regulations, DOT 
carriers in the United States are only required to carry 
$750,000 of liability coverage unless they are carrying 
hazardous materials, and then that limit goes up to a million 
dollars.
    If you are in a bus load of Catholic school kids and you 
get hit by a U.S. carrier, the first line of defense to take 
care of those claims is that insurance policy. The second line 
of defense is the assets of that trucking company located in 
the United States. The problem with this requirement is that if 
you have a catastrophic injury, such as a hazardous release of 
a Mexican carrier, for example, in Ms. Fallin's home district, 
that $1 million policy won't even begin to cover the liability 
consequences of that injury. Then the people in her district 
are going to be faced with pursing a claim against a foreign 
trucking company that has little or no assets in this Country 
other than the vehicle that was involved in the collision and a 
very long and arduous process, trying to get jurisdiction over 
that company's assets, not over the company itself, to make 
those people whole. And if they aren't made whole, then we as 
taxpayers pick up the burden.
    So what I would like to know from the three of you is 
whether you feel that applying the same insurance requirement 
for Mexican trucking companies is going to protect the safety 
of U.S. citizens if they are involved in a catastrophic loss 
involving a Mexican trucking company.
    Mr. Hill. Congressman, thank you for those observations. 
First of all, I would just say to you that we are required to 
follow U.S. law, and right now that is the law of the land. And 
we do that currently with Canadian carriers that come into the 
Country. So we already have a regimen in place. As far as the 
hazardous materials release, we are not going to have hazardous 
materials in this demonstration project. So that is one piece 
of the equation that you explained that we will not have in 
this demonstration project.
    I will defer to anyone else who might want to address the 
liability issues.
    Mr. Shane. I can't really add very much more to that, other 
than to say that the purpose of the demonstration program is to 
look at issues just like that one and to have a binational 
monitoring program in place that will identify issues, 
impediments to the normalization of relations with Mexico that 
we will need to address before we go any further. There are 
important pieces of information that we are trying to extract 
from this demonstration program, and it may very well be that 
we will come back with some recommendations to the Congress 
about whether or not our insurance is adequate for U.S. and 
foreign trucking companies in the U.S.
    Mr. Braley. Well, as someone who has represented U.S. 
trucking companies and claims against U.S. trucking companies, 
one of the big concerns I have is where those records are going 
to be maintained. Because if there is a requirement that the 
documentation required currently under USCSA is maintained in 
this Country, the accessibility to people who are regulating 
and people who are required to pursue those types of issues is 
much easier than having to leave this Country and go to some 
remote location in Mexico where that trucking company may be 
headquartered and maintains its records.
    So can any of you answer for me what record-keeping 
requirements are going to be part of this pilot project, to 
make sure that we in this Country have a means to monitor the 
compliance of these companies?
    Mr. Hill. Sir, I would just say to you that when we go down 
and do our safety audit and then document what we find there, 
we will be retaining those records and they would be subject to 
anyone who would like to see them. They are a part of our 
files, so they would be kept in the United States as far as the 
compliance with the safety regulations for that Mexican 
carrier.
    Mr. Braley. But as I understand it, that is a snapshot 
taken at one point in time. It is not a dynamic record-keeping 
process, which is what you as companies complying with this 
regulation are required to have in their drivers' files.
    Mr. Hill. Well, they are required to have the same kind of 
ongoing updates to their files, just as U.S. carriers are.
    But in terms of the issue of insurance, if they have any 
kind of deviation from their coverage, we are notified of that 
and we will take action to suspend their operating authority if 
they do not keep their insurance in force.
    Mr. Scovel. Congressman, if I may address your question as 
well. As Inspector General, my staff has not yet examined the 
insurance question in depth. I will note that the Committee's 
request by letter of last week to my office to conduct an audit 
of the demonstration program specifically asked us to address 
insurance, and we will do so.
    Mr. Braley. Thank you.
    Mr. DeFazio. That's an excellent question. Mr. Scovel, you 
implied something in an earlier question. Has your staff been 
to Mexico to some of these companies that have already been 
chosen to review the comprehensive nature of the documents that 
they are keeping along the lines of what he is asking? Have you 
been given that opportunity?
    Mr. Scovel. We have not, not yet. We have made extensive 
visits to the border crossings.
    Mr. DeFazio. Why haven't you been down there?
    Mr. Scovel. Part of the problem involves the brand new 
nature of the demonstration program.
    Mr. DeFazio. Right. But is there any barrier? Will you be 
going there for certain to review the compliance on that side 
of the border?
    Mr. Scovel. That is a question that we will ask the 
Department to assist us with. In view of the fact, of course, 
that Mexico is a sovereign country, that will require some 
negotiations. We would hope, in order to respond to this 
Committee's request for our current audit, that we will be 
granted authority at least to accompany FMCSA inspectors on the 
pre-authority safety audits.
    Mr. DeFazio. We would love to help you with that. Thank 
you.
    We will go on to Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    I listened to the Inspector General's commentary earlier 
and he mentioned that there are associated problems with 
reporting Mexican driver convictions in the U.S. How difficult 
is it going to be to implement the recommendations of the 
Inspector General?
    Mr. Hill. Congressman, as he indicated in his comments that 
we were responsive to their request to deal with this issue 
when we found out about it in Texas, the 40,000 citations and 
dispositions have been entered into the system and have been 
corrected. We are working with New Mexico, Arizona and 
California. We are going to make resources available to them to 
make sure that their current system of reporting that 
information is updated and current. We are going to be 
monitoring this as we go through the demonstration project.
    Mr. Boustany. And you will expand this to the other States? 
My States of Louisiana has I-10 running through. I talk to 
sheriffs and State troopers all the time, and of course, this 
is going to be a concern.
    Mr. Hill. Yes.
    Mr. Boustany. And making sure they are up to speed on the 
reporting and what mechanism they have to follow through to 
report convictions, to make sure that the data base is clean.
    Mr. Hill. Yes, one of the relationships that we have is not 
only with the International Association of Chiefs of Police, 
but also with the American Association of Motor Vehicle 
Administrators. They are the people that oversee the bureaus of 
motor vehicles throughout the Country, not oversee, but they 
have an association, they have a close working relationship. So 
we are going to be making certain that they have a clear 
understanding of the importance of feeding this into the 52nd 
State. They have been briefed on it, but we are going to be, as 
we now move into this demonstration project, we will make 
certain that that is a part of the regular update, that we meet 
with them.
    Mr. Boustany. Thank you.
    Mr. Scovel, your testimony mentions the development of 
systems that will permit electronic verification of licenses 
when a truck crosses the border. We currently don't have that 
kind of system in place, do we?
    Mr. Scovel. My understanding, Congressman, is that FMCSA 
inspectors at that point, through the LIFIS system, can access 
Mexican records concerning their commercial driver licenses. 
Here in the States, we have the so-called 52nd State system, 
which allows FMCSA inspectors, as well as State and local law 
enforcement authorities, to check possible convictions of 
Mexican commercial drivers in this Country.
    Mr. Boustany. We have concerns about the Mexican data, 
don't we?
    Mr. Scovel. Actually, Congressman, our examination of that 
shows that the Mexican data base is accessible. We haven't had 
an opportunity to verify all the content of that data base. 
However, we obtained data from FMCSA indicating that in April 
2006, FMCSA and state inspectors checked some 20,000 commercial 
driver license records through the Mexican LIFIS system. About 
one out of five of those revealed problems with the Mexican 
driver's license, they were expired, they were restricted, or 
the driver was not found in the database. That shows, we think, 
that first of all, the data base is accessible and secondly, 
the information that we are able to extract from it was helpful 
to FMCSA inspectors in making their judgments.
    Mr. Boustany. So given that, you do not feel that the 
implementation of this demonstration project is premature? Do 
you feel like you have adequate information to work with to go 
forward and implement the project?
    Mr. Scovel. The purpose of the demonstration project, of 
course, is to test the number of these systems. And we give 
credit for FMCSA for taking what appears to be a limited and 
rather prudent step in that regard. There are a host of 
unknowns that cause my staff great concern. You referred 
earlier to the 52nd State system and its implementation beyond 
the four border States. You noted in my testimony, sir, that we 
found reporting inconsistencies and some problems in the four 
border States. While we certainly trust FMCSA to carefully 
ensure the full implementation of that program through the 
other States in the Country, we will of course verify that and 
report back to Congress.
    Mr. Boustany. I thank you for your answer. I yield back.
    Mr. DeFazio. In a moment, we will have to adjourn for the 
votes. I am going to have to go to Homeland Security. I just 
wanted to say something at this point.
    I believe, and I realize this is ultimately an ideological 
struggle over free trade and this Administration's opinions on 
that. They want to deliver for the Mexican government. But you 
are blissfully unaware, and I believe Mr. Filner will fill you 
in a little bit on this, on the reality of Mexico. Here is a 
quote from the article by Charles Bowden. These things are not 
made up. Talking to truck drivers: We make almost nothing, less 
than $300 a week. I work 48 hours non-stop. I drive 2,400 
kilometers per trip and get no time for turnaround.
    Every man at the table agrees on their biggest problem: the 
government. And by that they mean the police, especially 
federal, who will rob them at will. If you drive to Mexico 
City, another driver adds, you are robbed for sure. Police are 
the first to rob you. If you report a robbery, the police will 
try to make you the guilty person.
    Then they go on to talk about drug use. This is the reality 
in Mexico. It is truly the reality. And you are saying, oh, we 
checked 20,000 commercial driver licenses against the data base 
kept by these same corrupt police officials. The people who are 
in that system are the ones that didn't pay the bribes.
    You are just blissfully unaware of what you are doing here. 
And we are not going to put in place extraordinary safeguards 
to deal with it. I am just very disappointed in the 
Administration on this issue. We are talking about the highways 
of the United States of America and the safety of the American 
public. And all for an ideological hit on free trade and a 
little sop to Mexico, because they haven't been able to deliver 
on some other things.
    This is extraordinary. The hearing will continue 
immediately after these votes. It should take about 20 minutes. 
We are recessed.
    [Recess.]
    Mr. Filner. [Presiding] The Subcommittee on Highways and 
Transit will come back to order.
    Our Chairman, Mr. DeFazio, will be back in a few minutes. I 
will substitute until he does get here. As fate would have it, 
I was next on the list to start questions. I apologize, I did 
not hear your opening statement, although I read them. I also 
missed some of the questions, so if you have gone over it, just 
tell me.
    I happen to represent the entire California border with 
Mexico between San Diego and Yuma, Arizona. I have represented 
that area on the school board, on the city council and now in 
Congress for a total of almost 30 years. So I would say I have 
a little familiarity with the area.
    And I must say to you, with all due respect, that a lot of 
the comments that I heard and read sounded to me and to the 
people I represent as very unrealistic. You don't really know 
what is going on there to make the kinds of statements that I 
have heard, and I will point out some of them. People 
throughout the border, whether they are in Texas or New Mexico, 
Arizona or California, are going to say that you guys have got 
to spend some time there with truckers, owners and with drivers 
on both sides of the border, as I have done for years, and then 
you would have a better sense of reality.
    My five minutes is not going to allow me to have a full 
sense of dealing with some of the delusionary statements you 
made, but let me try to go over some of them. When Mr. Braley 
asked a very good question about liability issues, your first 
statement was, oh, we have done that with Canada. No problem.
    There is a slight difference between dealing with a first 
world country and a third world nation, slight difference. And 
all the records and verifications and certifications and stuff 
that you are talking about hardly exist in Mexico. And if they 
do exist, they can be forged with great ease.
    So I am not sure that you fully understand the question or 
the issues. I have read in your statement that you are going to 
inspect every truck, every time, in this pilot program. And all 
drivers must have a valid commercial driver license, proof of 
medical fitness, and verification of compliance with hours of 
service. There is no way you will be able to do that in any 
satisfactory manner, in my humble opinion.
    That is, in my district, every day, 300,000 people go back 
and forth legally. There must be 5,000 to 6,000 trucks per day 
through my district. Your pilot, as I understand it, did you 
have a number anywhere of how many trucks you are going to do 
per day on this?
    Mr. Hill. Sir, we are trying to determine that, but we 
believe it will be somewhere under 1,000 trucks. We do know----
--
    Mr. Filner. Per day or per period?
    Mr. Hill. For the whole demonstration project.
    Mr. Filner. So maybe you will have a few a day? What is it? 
See, you are using issues that have no relevance to the 
situation. At one crossing that I represent, 3,000 trucks go 
by. There is no way you can inspect anywhere near a few percent 
of those. The lines now, without a safety inspection, could be 
two hours long, could be four hours long, could be eight hours 
long. You are not going to inspect every one of them. You are 
going to inspect a certain percentage, 1 percent, maybe 2.
    The real volume of traffic is so big. If your pilot program 
is so small that you can accommodate it, it doesn't give you 
any sense of the reality of the situation.
    Do you have a number for how many per day?
    Mr. Hill. We don't know. We are going to distribute it 
geographically, because it will depend on where they come 
through the port and it will depend on the size of the carrier. 
But we do intend to evaluate the safety protocols that we have 
in place. That is the whole point of this demonstration 
project.
    Mr. Filner. But you have had them in place for years and 
years. The volume is just so great, and the ability to 
circumvent the regulations is so easy that that doesn't mean 
much. You said, I think, in answer to one question, that when 
you inspect a truck, what are you going to do? You are going to 
give them a green decal, right?
    Mr. Hill. It will vary in color.
    Mr. Filner. That is the decal they give now. What are you 
going to give?
    Mr. Hill. We are going to inspect to ensure that their 
vehicle and driver meet the requirements that U.S. trucks meet.
    Mr. Filner. How are you going to tell me their hours of 
service?
    Mr. Hill. We are going to first of all verify that they 
have a log book in seven previous days, just like we do for 
U.S. and Canadian drivers. Secondly, our people have laptop 
computers. The will enter into their point of destination and 
where they left from as supported by their bills of lading and 
other documents that are required to be carried. We will enter 
that to se if the drive time matches what their log indicates. 
And then we also have a way of verifying through an audit or 
compliance review what kind of compliance they are doing on a 
regular basis. If they are found to be in violation, then we 
will revoke their operating authority.
    Mr. Filner. Are you sure they have a valid driver's 
license? How are you going to make sure of that?
    Mr. Hill. We are going to do it through verification of the 
Licencia Federale Information System, which is the------
    Mr. Filner. See, you are talking about things that in our 
society work: verification, certification. There is no such 
thing in Mexico. I could get a driver's license that would look 
to you perfectly valid. Just give me an hour and I will get it. 
And the data base could or could not have my name. Who knows?
    How do you check the insurance? They give you a form?
    Mr. Hill. They are going to be required to have insurance 
with a U.S. insurer------
    Mr. Filner. And how do you know they have it?
    Mr. Hill.--and that insurance company must certify with us 
that it is in force through a standard process that we now use 
with U.S. and Canadian carriers. It is not coming from the 
Mexican motor carrier, it is coming from the U.S. insurance 
company.
    Mr. Filner. And if a company has 10 trucks, each of those 
trucks is going to be in your system?
    Mr. Hill. They are required, when they do their 
certification through the MSC 90 form, to state what kind of 
vehicles are going to be in force through that policy. That is 
something we will verify.
    Mr. Filner. But is that specific vehicle on that 
verification, on that system?
    Mr. Hill. I would like to get back to you for the record.
    Mr. Filner. It doesn't, believe me. What they do now is 
give you some insurance form that they may have for one truck, 
but there may be 12 other trucks in their fleet, and it looks 
like they have------
    Mr. Hill. Right now, the Mexican carriers that are going 
through the commercial zone and back to Mexico use a trip 
insurance process. They are not going to be allowed to use that 
in this long haul demonstration pilot. They mst have insurance 
in force with a U.S. insurer. That is different than what you 
are talking about with the trip insurance.
    Mr. Filner. I want to know, is each vehicle going to be in 
this system for verification? Every vehicle that the truck 
company has?
    Mr. Hill. We are going to be determining------
    Mr. Filner. Or is it just for the company?
    Mr. Hill. We will be determining which vehicles by VIN 
number are going to be a part of the demonstration project.
    Mr. Filner. You didn't answer the question about the decal. 
After they have been certified safe, they get a decal?
    Mr. Hill. They get a commercial vehicle safety alliance 
decal. It is a decal that is now put on trucks anywhere in 
Canada, United States------
    Mr. Filner. So if they come back next day and they have 
that decal, you will just wave them through?
    Mr. Hill. We could, unless there is an obvious safety 
defect, then we could pull them in.
    Mr. Filner. I am glad you have a lot of confidence in the 
decal. You can't scrape off the decal without destroying it, 
right? I have watched windshields being taken from one truck to 
another, with ease. Every one of those things that you said, 
which in our society is so important, and people carry it out 
most of the time. When you see stuff on decals and when you see 
an insurance verification, it is real. It ain't so with the 
ones you are going to get.
    And when you get to the real case, the volume is so heavy, 
that you will never be able to do it. You will never be able to 
handle this without more efficiency at the border crossing. I 
will tell you, if you are waiting two, three, four, five hours 
now, and the safety inspection is added onto that, there is not 
a lot of room at most of the border crossings to do that, for a 
large number of trucks. The highway patrol in California has a 
station. But only a few trucks can pull in there. And if you 
are going to do every one, every time, there is no way. There 
is just absolutely no way you can do it, believe me. So you are 
going to have to do only a certain number, and when you get 
down to that low percentage, then your system is not 
guaranteed.
    My time is up, but I just wanted to let you know, from the 
point of view of those of us who represent the border, what you 
are saying has just no sense of reality. There is no way that 
you can do most of this stuff, from our experience. I have 
stood at the border with American truckers, with truck owners, 
with Mexican truckers. They have shown me all the problems of 
trucks coming through, even ones that may pass a safety 
inspection. They showed me what the driver was doing that 
nobody could tell. Virtually every truck had something wrong, 
every truck, with either insurance or the driver's 
certification, every truck. In fact, there was a pilot case 
used in California, I think the California Highway Patrol and 
you guys did this in the test case, and you had almost 100 
percent of problems.
    You are going to have a major accident somewhere in Iowa, 
maybe with a school bus, the Mexican driver who hadn't slept 
for three days, has no insurance, and he runs into an American 
bus. The American people are going to say, how did this happen? 
We should not let us get to that situation.
    Is Mrs. Miller here?
    Mrs. Miller of Michigan. Thank you, Mr. Chairman, yes, they 
moved me up here.
    Let me just say first of all, gentlemen, I appreciate your 
attendance here today, and what has been some very tough 
questioning, and I think in a very bipartisan way. Because I 
think there is tremendous consternation on the part of the 
Congress on both sides of the aisle about how this program is 
going to work. And I do, I am very cognizant of the fact that 
it is a manifestation of NAFTA.
    Coming from Michigan, I would tell you that I am not 
predisposed to be very sympathetic to NAFTA and some of the 
unintended consequences that have happened as a result of 
NAFTA. That is what happens sometimes with these trade 
agreements, I suppose. In my district, my colleague is from 
California, a border State. Michigan is also a border State. In 
fact, I-69, which is sometimes referred to as the NAFTA super 
corridor, or superhighway, however you characterize it, has its 
genesis actually in my district. The traffic transits over the 
Blue Water Bridge, which is the second busiest commercial 
artery on the northern tier of the Nation.
    I will also tell you that actually, before I cam to 
Congress, I was the Michigan secretary of state. That is one of 
three States where the secretary actually has jurisdiction and 
principal responsibility for all motor vehicle administration. 
So I was responsible for licensing all vehicle drivers, whether 
that is passenger vehicles or commercial driver licenses, or 
hazardous material endorsements on the CDLs. And I did note 
that you said there would be no hazmat transited in the initial 
pilot.
    But I will also tell you, I am very familiar with AMBA and 
the types of reciprocity of data bases amongst all of the 
States, which was a work in progress for many years. Sharing 
the data, with safety records and driving records, et cetera, 
amongst the States in our Country has gotten much, much better 
than it has ever been. It is not that way in Mexico. I do not 
know what the reciprocity is amongst the country of Mexico, but 
I did hear Mr. Scovel mention that when you were looking at the 
driving records, you noticed that one in five had some sort of 
discrepancy. If I can say respectfully, you seem to be somewhat 
cavalier about that.
    Let me tell you that, Michigan, if we had one in five, we 
would be in crisis, if there was a one in five problem with our 
driver's licenses. So I don't think the LIFIS system that is in 
Mexico does have the transparency that would give me any kind 
of comfort level. I think it is unfortunately that the Congress 
apparently cannot stop this program, because I would be very 
interested in trying to stop what you are having to carry out 
as a result of what the Congress did, and as a result of NAFTA 
as well.
    I guess I would ask, I note that there are approximately 
100 Mexican companies that have signed up to start this 
program. Only two American companies have signed up, which even 
I can figure out that something is wrong with that equation. 
Perhaps you could explain to me a bit your process, flesh it 
out a little bit, the process that you took for auditing these 
companies in regards to their records.
    Mr. Hill. Thank you, Congresswoman. A couple of points on 
the auditing of the records. First of all, we are in that 
process right now. We have done only two or three of those. I 
am not familiar with any more at this point.
    What we did is we looked at the people that applied and we 
are going down the list and we are going to do safety audits. 
What we are finding is that the first 16 that we had a list to 
go to audits on, 4 of them, when they heard that we were coming 
in to do the audits, have chosen not to participate. So we 
don't know how many we will eventually have to go through in 
order to get to the 100 carriers that we have talked about.
    And then beyond that, we have gone through a process of 
verifying their information before we ever get there to make 
sure it is current and that they do intend still to participate 
in long haul trucking. So that is how we have done it at this 
point, and I will be glad to go further, if you have any 
further questions.
    Mrs. Miller of Michigan. I don't know that I have any 
questions. I suppose I am just making the statement that 
everybody else on this Committee has seemed to make during the 
course of this hearing, of how much distress there is and how 
uncomfortable people are about this entire pilot program. I am 
concerned they are going to run up I-69 through my State as 
well and up into Canada, if Canada will allow such a thing to 
happen. I don't know if that is part of the NAFTA agreement or 
not.
    But I do have great consternation and as I say, it is 
unfortunate that Congress is not able to stop this.
    Thank you.
    Mr. Filner. Thank you, Mrs. Miller.
    Mr. Poe?
    Mr. Poe. Thank you, Mr. Chairman.
    I represent part of southeast Texas, and I too am very 
concerned about this situation. I am not convinced at all that 
this is a wise idea. It looks like it is great for Mexico, and 
what does the United States get out of it? A player to be named 
later seems to be the only thing that we will get out of this.
    Laredo and Nuevo Laredo, where I have been numerous times, 
the largest inland port in the United States, about 5,000 18-
wheelers a day cross that port of entry each direction. Only a 
fraction of those trucks are already inspected. Now we are 
going to have more trucks coming in, and only a fraction of 
those will be inspected.
    Recently in Houston, the NBC affiliate has done an 
examination of the trucking industry in the State of Texas and 
the people who drive those trucks. Texas leads the Nation in 
fatalities of 18-wheelers. Yesterday there were two wrecks, 18-
wheelers in rush hour yesterday morning. It is a daily 
occurrence. It seems as though the inspection of the trucks and 
the truck drivers is something that occurs only on an 
occasional basis. Now we are going to have more trucks and more 
drivers.
    In Mexico, you can buy anything at the border for a price. 
You can get yourself a social security card, you can get 
yourself a commercial driver's license in any State you want, 
you can have an insurance card and you can be anybody you want 
to be. And they will sell all that to you before you cross into 
the United States. I don't see that that is going to change 
under this system and especially under the inspections.
    So my concern is, as stated by everybody else, while it may 
sound like a noble idea, the reality of the matter is, there is 
no guarantee that these vehicles will be inspected for safety, 
that their drivers, that we even know who they are, much less 
know about their criminal record or use or abuse of narcotics. 
And I just want to know what assurances the American public has 
that these trucks will meet standards of the American trucking 
industry, the drivers are as qualified as an American trucker, 
what assurances we have except we are going to inspect most of 
them or some of them.
    Mr. Hill. Congressman Poe, concerning the issue of the 
drivers and the security and their history, we are going to be 
verifying the driver information at the time that we do the 
pre-authority safety audit, we will be there physically in the 
company. We are going to be looking at the information. We are 
going to verify that the driver's license is in force and it is 
accurate.
    Secondly, we are also working with DHS to make sure that we 
vett names through appropriate watch lists and drug-related 
data bases, so that we have assurance the people that are 
coming into this demonstration project are not going to be 
involved in nefarious activity through any data base that we 
have.
    Secondly, I would just say to you that as we move forward 
with the vehicle safety inspections, we are not only going to 
be inspecting these at the time of the pre-authority safety 
audit at the carrier's place of business, but we are also going 
to be inspecting vehicles at the border now, we do that. Last 
year we did 210,000 with our partners here in Texas in the 
southern border region, 210,000 inspections. So we are actively 
involved in already doing safety inspections along the 
commercial zone.
    Mr. Poe. Of those 210,000, how many passed inspection?
    Mr. Hill. There were, the out of service rate for the 
Mexican carriers was 21 percent, which is comparable to what 
the U.S. out of service rate was nationally of 23 percent.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Filner. How are you going to know if they leave?
    Mr. Hill. I am sorry, I did not understand.
    Mr. Filner. Truck comes in, you have inspected it, you have 
guaranteed that we are safe. How long can that truck driver 
stay without anybody knowing it? Are you verifying the exit?
    Mr. Hill. We are working with DHS on that.
    Mr. Filner. The answer is no, that you are not going to 
verify it.
    Mr. Hill. They are allowed to be in the Country for a 
specified period of time under a visa.
    Mr. Filner. But look, and I am sure Mr. Hoffa can speak for 
himself, but you have a driver here who is going to work for 
far under what an American teamster is going to make, and you 
won't even know it. There is no exit system, right?
    Mr. Hill. There is------
    Mr. Filner. So they can work all day from L.A. to San Diego 
or from Minneapolis to Chicago, back and forth for $5 and hour 
or $10, whatever. How are you going to know that, and how are 
you going to verify after a week that they are still safe?
    Mr. Hill. I would think that the carrier involved might 
have a little bit of interest in where his or her truck is.
    Mr. Filner. That carrier may be a different carrier the 
next day. I mean, every answer that you give is as if it is a 
first world nation of contracts and memberships and laws. The 
same trucking company that you verified will be a different 
trucking company the next day.
    Mr. Hill. Those motor carriers that you are referring to 
that switch their identity every day, we are going to have a 
record of that, and if it doesn't match, then we are going to 
be putting them out of service.
    Mr. Filner. Meanwhile the truck driver is going back and 
forth. What are the consequences of that?
    Mr. Hill. If there is a motor carrier that you just 
described that is switching their identity, then they are 
operating outside the scope of their authority. When they are 
detected somewhere in this Country------
    Mr. Filner. But the trucks are already here.
    Mr. Hill.--then we will place the vehicle out of service, 
and the vehicle will not be allowed to move until it is 
properly licensed. Which is what we do now with U.S. carriers.
    Mr. Filner. Just like we do with anybody who overstays 
their visa in this Country, we have noted them, we know they 
are here and we go after them, right?
    Mr. Hill. I am not prepared to talk about DHS protocol in 
terms of immigration and visa issues. But I can tell you about 
the safety------
    Mr. Filner. Yes, but I am just saying, those of us with 
experience with it, it is laughable what you are suggesting. It 
is not going to work.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman. Again, we appreciate 
your being here. And we appreciate all you do. I know you work 
really hard in trying to come up with the right solutions to 
problems. But I too have real concerns with this. As the 
Chairman just mentioned, if you look at the State Department 
program with the visa, 43 percent of the people who are here 
illegally have overstayed their visa. Immigration and 
Naturalization is a mess. It is broken.
    So DOT does a good job with a lot of things, but I guess my 
problem is, I don't see where you are going to do any better in 
a similar situation than these other agencies have done. It is 
a real concern.
    You mentioned that 860 applications to come over here, you 
have whittled it down to 150, 160. But again, the fact that 
only one or two of our carriers, in an effort to make a buck, 
are willing to venture across the border, that is a very 
telling thing. We compare with Canada, and yet we would 
certainly have countless carriers going the other way.
    You have mentioned a lot about different enforcement 
mechanisms. How many people are you going to hire? How much 
increased staff are you going to do? What do you anticipate a 
budget, increased budget? If you are not going to increase the 
budget for these things, then where are you taking it from to 
pay the bills for this?
    Mr. Hill. Congressman Boozman, I don't know if you were 
here for my earlier answer, but when the 2002 Appropriations 
Act was put in place, there was dedicated funding given to 
hiring people for this particular project, not so much the 
demonstration project, but Mexican border enforcement. So the 
people that we have in place, the 274 FTEs that we have in 
place on the southern border, those are dedicated positions. 
They are not allowed to go up into Maine or to Michigan, so 
they are dedicated to the southern border.
    We do not anticipate asking you for an increase in the 
budget, because the Congress has already provided that funding 
specifically to do this particular border enforcement work.
    Mr. Boozman. But there will be, it has been alluded to, the 
problem of the trucks not doing what they are supposed to do 
once they are in the United States. Our agencies now are 
basically busting a gut and there is no increased ability for 
them to enforce. How are you going to enforce all the potential 
problems that you are going to have once they get beyond the 
border?
    Mr. Hill. One of the purposes of the demonstration project 
is just that, we are going to take the concerns that I have 
heard expressed by skeptical people today, and we are going to 
evaluate whether or not we are going to see an effective long 
haul trucking operation coming into this Country and going 
south. If what you are saying is accurate and the U.S. trucks 
have difficulty going south, then I think that is a part of the 
evaluation process and we will have to make a determination 
whether this is really something that the U.S. Government wants 
to do.
    But our purpose is to at least try it and make sure that we 
fulfilling our NAFTA obligations. At this point, we are not 
doing so.
    Mr. Boozman. I understand. But again, it seems like if you 
are going to do this, then you have to have enforcement in the 
interior and you have to budget somehow to do that. You have to 
pay the people to do it and you have to do it with a pilot 
program. I live in Arkansas. Seventy percent of the crime in 
Arkansas is meth-related. Most of that comes from Mexico. There 
is no way that you are not going to have increased smuggling, 
you are not going to have increased trafficking unless you go 
the whole way with the enforcement and the whole bit.
    If you are going to do this, and I think you have the 
ability to do it, but you do have to do it with the 
understanding that you are going to be held accountable. And we 
really are going to do that. I think that is fair. That is what 
we are elected to do. But you really are hearing some very 
valid concerns that really do need to be addressed. If you are 
going to do this, you can't do it on the cheap. You have to do 
it right or it is going to bite you.
    Mr. Hill. I would just say to you, Congressman, in closing, 
that we have 13,000 State inspectors right now that we work 
with throughout this Country. I know Paul Kalonch and the 
people down in Arkansas quite well; I work with him. He is a 
past president of CVSA. People like that all throughout the 
Country are right now finding unsafe vehicles, unsafe drivers 
every day. They did over 3 million roadside inspections last 
year.
    I just heard about a commercial vehicle inspector from the 
State of Michigan, two or three weeks ago, who caught a major 
drug operation through a regular commercial vehicle inspection. 
I have done this my whole life, 29 years I have been in the 
State police. Believe me, I want this to work well. I do not 
want unsafe trucks in here. I don't want unsafe drivers. I 
don't want crime coming in here.
    But my job in the Executive Branch is to execute what the 
Congress has approved, and this is what I am here to do and I 
am trying to do it the way you folks are going to allow us to 
do it.
    Mr. Boozman. Thank you very much. Thank you, Mr. Chairman.
    Mr. Filner. If someone from the Arkansas Highway Patrol 
stops a truck and finds it unsafe because something happened 
after the inspection, of course, what happens to that truck and 
driver?
    Mr. Hill. In terms of a vehicle defect?
    Mr. Filner. Vehicle, or person.
    Mr. Hill. CDL violation or drugs and alcohol?
    Mr. Filner. Whatever. If the highway patrol, if the guy 
finds either a crime by the driver, insurance problem, safety 
problem, a drug problem there in Arkansas, what happens to the 
truck and the driver?
    Mr. Hill. The vehicle, if it is an offense that requires 
incarceration, the Customs and Border Protection staff will be 
called. They will come and deal with the legal alien and the 
vehicle will be placed out of service and it could either------
    Mr. Filner. He's not illegal, you let him in.
    Mr. Hill. Pardon?
    Mr. Filner. How are you saying illegal alien? You certified 
that they were legal when they came in.
    Mr. Hill. Excuse me. If they are found to be a legal alien 
and they are in violation of some State or Federal law, Customs 
and Border Protection will come and get them and take them back 
to their country. The vehicle will have to be moved by either a 
U.S. carrier or by an appropriate approved long haul Mexican 
carrier with authority.
    Mr. Filner. You are going to have some problems.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. We have heard a 
lot of very interesting points today, and I have to concur with 
some of the things that particularly Congress Poe and 
Congressman Boozman mentioned about making sure that we do this 
right if in fact it is going to happen.
    Now, I have a little bit of a different perspective. I 
represent Florida. We don't have the issue of drivers across 
the border. However, I just keep hearing that if it is drivers 
or trucks coming from the great white north that it seems to be 
okay, but if it is coming from the not so white, brown Mexico, 
it is totally horrible and everything is going to fall apart, 
which frankly, I think is rather offensive, to tell you the 
truth, what I have heard a little bit today. Particularly when 
for some reason it looks like Canada is infallible and Mexico 
cannot be trusted, no matter what.
    My understanding would be, whether you look at cases, for 
example, like suspected terrorists that have come over the 
border, they have come from Canada, which means that they are 
not infallible like we know that the Mexican border clearly is 
not infallible. But I have just been hearing a lot of this 
talk, Mr. Chairman, about all these Mexicans are incapable of 
doing anything. And frankly, it borders on offensive, to tell 
you the truth.
    Not that there are not real issues. But what I would say is 
that the real issues are both from the Canadian side and the 
Mexican side, because just the fact that they are the great 
northern lighter skinned border does not mean that they are 
infallible. Because history has shown that, Mr. Chairman, that 
they are not infallible either. So my understanding is that 
that is what the pilot program is all about, to try and figure 
out what some of those issues are, correct? To try to solve 
some of those issues.
    But I am hoping that we are not only looking at, as we need 
to, what some of those issues are with Mexico, which I know 
there will be many of them, you have heard a lot of the issues 
today, but I hope that we are not assuming that because it 
comes from Canada that for some reason everything is okay there 
and you cannot get fake decals. The Chairman just mentioned a 
little while ago how he has seen windshields being shifted. 
Those are not Mexican trucks.
    So we already have issues. I am just hoping that we don't 
only emphasize Mexico and we look at the whole issue, and what 
are you doing to make sure that we are not going to be 
forgetting other borders just because they may not be brown.
    Mr. Hill. Thank you, Congressman. Just for the record, I 
want to state that safety doesn't have a color lens here. 
Safety is safety, it is vehicles, drivers, we are going to be 
doing safety regardless of what nationality is involved in the 
trucking operation.
    Secondly, I would say to you that as a part of the 
appropriations process, the Congress has given $32 million to 
us every year during this reauthorization period to address 
border enforcement grants for both the north and the south. So 
there is money going to the States of Michigan, available to 
the States of Michigan, Maine, Vermont, all of those northern 
tiered States to do border enforcement for Canadian carriers, 
just as we do with the ones down in the south.
    The only caveat is that because of the Section 350 
requirements in the 2002 Appropriations Act, we are 
specifically required to do some things that are unique to the 
Mexican carrier population, which is going into Mexico and 
doing the audit. But I can assure you that we have, working 
with our States, we regularly do enforcement along the northern 
border and we are going to continue that.
    Mr. Diaz-Balart. What happens when the pilot program is 
concluded? It is done and then what steps are taken to make 
sure that the issues that you have found, and I am sure there 
will be a myriad of issues, are actually dealt with and not 
just kind of passed over like, oh, we did the pilot program, 
not let's go and expand it. How are you going to deal with 
those issues and how are you going to aggressively deal with 
those issues?
    Mr. Hill. As the Under Secretary indicated earlier, this 
evaluation process is not going to happen at a point in time on 
the 11th month at the end of the project. It is going to be 
throughout the demonstration project.
    I think one of the values to what we are doing by allowing 
us to observe these first few months of this project with the 
Mexican motor carriers is to really focus in on the safety 
issues and determine how well they are complying or not 
complying in accordance with Congressional requirements.
    But to answer your specific question about the evaluation, 
we are going to make sure that there has been equal treatment 
south of the border as we are seeing with the Mexican carriers 
coming north. So that is going to be a key part of what we 
evaluate.
    Obviously, safety is the standard that we have to make sure 
that people who are participating in this are going to meet 
safety standards. I do not want there to be an event, I do not 
want there to be some kind of a crash that occurs that draws 
attention to this. We have to make sure we have done everything 
that the Congress has asked us to do, and we are committed to 
doing that through evaluation process.
    Mr. Filner. Thank you, Mr. Diaz-Balart. Mr. Miller?
    Mr. Miller of California. Thank you very much.
    I have some questions, and I am not trying to be 
argumentative, I have some questions I have not been able to 
answer based on what I have heard. There is no way of tracking 
these drivers when they come into the United States. Let's say 
you have a truck coming across the border and you have two 
drivers, one on the passenger side, one in the driver's side. 
How do you know that both those drivers go back?
    Mr. Hill. I can only tell you that from a safety 
perspective, we are going to be verifying whether or not the 
driver and that passenger in the vehicle is authorized to be 
there. That is a current part of our regulations.
    Mr. Miller of California. What type of authorization do 
they need? They don't need a visa?
    Mr. Hill. They do need a visa, I am told by the Customs and 
Border people. I don't have a DHS perspective, I don't have all 
of their perspective on this. But it is my understanding when 
they come into the Country and they declare that they are going 
to be going into the United States, at that point they will be 
pulled out, they have an individual interview with Customs and 
Border Protection, they go into their data base and they begin 
tracking them.
    Mr. Miller of California. Okay. The Chairman kind of 
touched on a question, let's say a truck comes from Ensenada 
with a load. They come from Ensenada, Mexico, they drive to 
Portland, Oregon to drop their load off. Then they pick up a 
load in Portland and they drive it back to Grants Pass and drop 
it off, pick a load up at Grants Pass to Sacramento, drop it 
off, pick a load up in Sacramento to Los Angeles, drop it off, 
pick up a load in Los Angeles to San Diego, drop it off, pick a 
load up in San Diego and they are going back to Ensenada.
    How are we to track that in any way? How do we know that is 
not occurring? All it would take is some cooperation with some 
American scheduler who schedules pickups. I know it sounds like 
an argumentative question. It is really not meant to be. But 
this could very likely happen. And the guy going back, he is 
going to be awful cheap. How do we make sure that does not 
occur?
    Mr. Hill. Congressman, I don't think it is an argumentative 
question. It is a relevant question and it is a term that we 
use in the industry today called cabotage. Cabotage simply says 
that if you are coming in from Canada or you are coming in from 
Mexico, you can only deliver to a point in the U.S. and pick up 
a load and take it back. I think the answer to that is, through 
regular inspections that people are subjected to and going 
through weigh stations, using systems that we now have in place 
throughout this Country. I know Oregon has a very thorough 
process at the weigh station and they look at the way that is--
----
    Mr. Miller of California. So you would track that truck to 
every weigh station?
    Mr. Hill. No, we are not going to track it. But what I am 
saying is, in the course of them coming through there, we would 
verify with their bill of lading and make sure that the loads 
are in fact where they are supposed to be going. And if they 
detect cabotage, then they are going to be subject to being 
placed out of service, they cannot move the load.
    Mr. Miller of California. And each time these trucks come 
across the border, do they have to go through the safety 
inspection process, or is it a one time process?
    Mr. Hill. They have to be through a safety inspection 
process at least every 90 days, as verified by a safety decal. 
If we see an obvious safety defect or we want to inspect the 
vehicle, we can do so without having to just wave it on through 
because of a safety decal.
    Mr. Miller of California. I don't know if it was discussed 
earlier, but in 1994, the Mexican engines met our emissions 
standards, so U.S. EPA, up to 2003, but the Mexicans have not 
revised the standard which requires a 50 percent reduction, 
that was in 2004 to 2007, and a 90 percent reduction of 
nitrogen oxide in 2007 and beyond. Are we mandating that they 
meet those new standards?
    Mr. Hill. When we have vehicles coming in from out of 
country, they are required to comply with the standards that 
are in place in those States. So if States are enforcing air 
quality standards, as they do in California with the------
    Mr. Miller of California. So they have to meet the new 
standards?
    Mr. Hill. They would have to comply with those standards.
    Mr. Miller of California. My concern is a lot of our 
railroads are being impacted because they are trying to cut the 
standards, because the pollution is being emitted. Our own 
truckers are having to buy a new type of diesels to meet the 
standards. These Mexican trucks are actually going to have to 
do that?
    Mr. Hill. One of the things that we have found, 
Congressman, in doing the two audits that we have already, is 
that the vehicles that are being proposed to come into the 
Country for long haul operations are newer models. The 2003, 
for example, is the most recent version of model coming into 
the Country. Those would meet the U.S. standards. So we 
anticipate they will be sending their best equipment north, so 
that it would avoid breaking down, and therefore we believe 
they will be using newer equipment.
    Mr. Miller of California. I really hope that the Government 
is going to enforce this numerous pickups standards, where they 
are not allowed to stop in numerous cities to pick up cargo to 
be shipped. Because we have lost so many jobs in this Country 
to illegal immigration. To lose more jobs to illegal activity 
by those who are supposed to be here legally is just one more 
burden I think it just unacceptable by the American worker. So 
I just would strongly encourage some type of mechanism or 
program be developed and is in place that we can actually track 
these weight loads and make sure there is no disparity between 
those and we are really protecting American jobs. That is the 
biggest concern I have.
    I thank you, Mr. Chairman, for your courtesy.
    Mr. DeFazio. [Presiding] I thank the gentleman for his 
questions.
    Just a couple of quick questions, I appreciate the 
indulgence of the Committee being here so long. Just to follow 
up on two questions raised by the gentleman. On the emissions 
standards, a 2003 truck would not meet the 2007 or the proposed 
2010 standards, and we are not going to require that they do? 
Are we going to have a requirement that any truck crossing the 
border meets the 2007 standards, and a requirement that any 
truck crossing the border meets the 2010 standards? Are we 
going to require that? Do the Mexicans have the low sulfur 
diesel available to those people?
    Mr. Hill. I am told that they are working on improving the 
low sulfur diesel fuel access in their country. And what we are 
going to be requiring them to do is comply with the law, U.S. 
standards as they come into this Country. But we don't enforce 
that.
    Mr. DeFazio. Right. So basically, we are going to have 
Mexican trucks coming into the U.S. and competing with U.S. 
trucks who don't meet the emissions standards and haven't had 
to make the investment or the expense.
    On the other issue about the cabotage, I think the 
gentleman raised a very good point. What percent of the trucks 
en route does FMCSA stop and examine within the U.S. on an 
annual basis? Of all the trucks out there and all their 
movement, what percentage?
    Mr. Hill. I would have to get back to you for the record.
    Mr. DeFazio. So you would be like single low digits, right, 
in terms of truck trips?
    Mr. Hill. I would really have to look at the data.
    Mr. DeFazio. Well, the question, but that goes to the 
question of enforcement of cabotage. The truck comes to the 
border, it has a manifest, it says, I am going to New York. 
Then apparently they get to New York, they could deadhead all 
the way over to Ohio and then come back down with a load from 
Ohio, that would be allowed? You don't have to go to New York 
and back from New York. You could go to New York, you could 
drive the truck over and pick something up in Chicago and drive 
it back down, is that correct? It's just international movement 
that's required?
    Mr. Hill. Yes. I am not sure that would be a financially 
smart move for the truck, but that could happen, yes.
    Mr. DeFazio. Well, depending upon the cost of labor versus 
the cost of fuel and when you are not towing a trailer, who 
knows. But let's just leave that for now. But that is the legal 
framework.
    But then, who is going to intercept that truck between New 
York and Chicago on a regular basis to determine that in fact 
it wasn't scheduled to take a load from New York to Chicago. It 
went to New York, the manifest says it is going to come back 
from Chicago, but only if the random occurrence of a stop 
happens between New York and Chicago and the person is smart 
enough to ask for the manifest and can read the manifest, if it 
is in English, and determine whether or not that truck is en 
route or not and see that it is carrying a load and it was only 
supposed to go to New York with a load and back from Chicago, 
and in between it is not supposed to have a load? It seems to 
me like we are really opening the door to the abuses that the 
gentleman on that end raised. I just don't see that we are 
building in some certainty here that we are going to prevent 
cabotage. And there is going to be a tremendous temptation on 
the part of agents to do cabotage, because they can save money.
    Mr. Hill. Would you like me to respond?
    Mr. DeFazio. Sure.
    Mr. Hill. Okay. To the first one, yes, I am quite confident 
that the inspectors are smart enough to look at the manifest 
and determine where that is, because that is a part of their 
current process in doing an inspection.
    Secondly, this will not happen in the demonstration project 
the way that it would happen if we were doing this on a full-
scale opening of the border. But the compliance review has to 
be done before any permanent authority is granted. So in other 
words, we will go in and look at the books of this carrier, and 
we will examine at that time whether or not they are doing 
cabotage violations. And if they are, through their bills, 
through their records that they have been at places other than 
where they said they were going to do in terms of international 
movements, then we will take action and deal with their 
operating authority.
    Mr. DeFazio. If you were doing something illegal, would you 
put it on the books? Again, the faith--do you know what the 
word comic book refers to among truckers?
    Mr. Hill. Yes, sir, I have heard that.
    Mr. DeFazio. So I am sure the same thing could go on in 
this area. I doubt that if someone illegally moved product 
between New York and Chicago that they would have declared that 
and their company would record it on the books in Mexico that 
we could go down and examine and find.
    But in any case, just one last question. And I don't know 
if Ms. Napolitano or Mr. Filner followed up on this. But again, 
just back to the initial agreement. I just find it disturbing 
that it says first stage, six months, second stage, six months, 
third stage, commences at the end of the twelve months. Mr. 
Shane has said there will be an evaluation before we open our 
borders to any and all Mexican trucks.
    But then you go to page two, next steps, pilot program, 
joint formal announcement, done, creation, start of operations, 
technical bond, done, identification of Mexican carriers, in 
process. The beginning of the pilot program, hasn't happened 
yet. But you go on down and you get to the end again, and it 
says, beginning of pilot program, second stage, U.S. trucks, 
and then beginning of the permanent opening third stage.
    Again, this is all initial. You have to understand that 
from a policy maker's perspective, we look at something that 
says first stage, second stage, third stage, third stage is we 
totally open our borders after 12 months and it is repeated on 
two pages and it is initialed, we have to assume that there is 
some understanding between the two governments that this thing 
is going forward.
    Mr. Shane. There is not such an understanding. The 
understanding is as we have stated today, there will be an 
evaluation preceding any normalization of the relationship 
between the United States and Mexico on motor carrier 
transportation. That is about as clear as I can make it.
    Mr. DeFazio. The word normalization meaning what you think 
must happen pursuant to the requirements of NAFTA, that is what 
you mean by normalization, i.e., Mexican trucks can drive 
anywhere in the United States of America?
    Mr. Shane. And U.S. trucks driving anywhere in Mexico.
    Mr. DeFazio. Right. But we already had, as I put in the 
record, the security warning and the testimony that I put in 
the record saying that actually, given the high degree of 
hijacking that U.S. companies really are kind of reluctant to 
go into Mexico and they have an advisory against going into 
Mexico, because the Government isn't there to protect them. But 
that same Government is keeping the records that will protect 
the American people.
    I don't have any further questions. Mrs. Miller?
    Mrs. Miller of Michigan. Nothing further, thank you, Mr. 
Chairman.
    Mr. DeFazio. Ms. Napolitano. One last bite of the apple, 
then we will let these gentlemen go.
    Mrs. Napolitano. Thank you, Mr. Chairman. I will be very 
brief.
    We talk about the non-enforcement area of fuel, leaded 
fuel. If I am understanding correctly, with California, EPA is 
now working on the ports to assure that the ships coming in 
have lesser sulfur, to be able to burn less fuel because of the 
pollution of the port area, which then blows into my area, 
blows out into the Inland Empire.
    We are not looking at something similar to be able to 
ensure that those trucks coming in are utilizing the low sulfur 
fuel or unleaded, whichever?
    Mr. Hill. I wish that I could tell you that I am EPA 
specialist and could address all of this. I will be glad to 
follow up on the record with any specific questions you have 
about the environmental issues from our coworkers at EPA. But I 
do know from my limited visits out there, your area, the Long 
Beach port and so forth, that there are initiatives underway 
with EPA and the country of Mexico to develop projects along 
the border to decrease the incidence of high sulfur usage.
    Secondly, they are also developing corridors in this 
country of Mexico for trade routes for U.S. trucks to have low 
sulfur diesel fuel. Because it is critical that they have that 
in place in order for our trucks that use the low sulfur diesel 
fuel after 2007, that they have that access.
    Mrs. Napolitano. The reason I am asking is that I did talk 
to EPA and they were telling me they were working on it with 
the port authorities.
    Mr. Hill. Okay.
    Mrs. Napolitano. Then the last question that I will have 
has to do with, and I am not sure if it was covered before, but 
does Mexico have certified labs and protocols in place for drug 
and alcohol testing of their drivers, and how is our U.S. DOT 
planning to address the drug and alcohol testing of Mexican 
truck drivers?
    Mr. Hill. No, they do not have drug certified labs in 
Mexico at this time. They have been working with us to do that, 
but we have not seen their labs certified. We did enter into an 
agreement with the Secretary of Communication and Transport in 
1998 to have them use collection sites. Those collection sites 
are staffed by SCT employees and there are, I think, seven of 
them at this time.
    Mr. Filner. I am sorry, whose employees?
    Mr. Hill. SCT, Secretary of Communication and Transport, 
which is the counterpart to our Department of Transportation in 
Mexico. Government employees there supervise the collection of 
the specimens and then they are sent to a U.S. lab, where they 
will be tested in a certified U.S. lab.
    Mrs. Napolitano. Because that goes to the safety, again, on 
our highways and our roads, other transportation vehicles.
    Thank you, Mr. Chair. I have questions for the record that 
I will introduce.
    Mr. DeFazio. I always encourage questions for the record, 
although I have never had one meaningfully answered in 21 
years. But you can always try. And that was both Democratic and 
Republican administrations.
    Thank you, thank you for your very generous grant of time. 
I am sorry about the interruption with the votes. Thanks again.
    With that, we would dismiss this panel and call the next 
panel. Thank you.
    Our next panel will be Mr. James P. Hoffa, General 
President, International Brotherhood of Teamsters; Ms. 
Jacqueline S. Gillan, Vice President, Advocates for Highway and 
Auto Safety, Washington, D.C.; and Major Mark Rogers, Texas 
Department of Public Safety, State Commercial Vehicle Safety 
Coordinator. If you could all take your seats and proceed in 
that order.
    Again, I would also thank this panel in advance for their 
indulgence. I know this has taken a bit longer than we thought 
to get to you. So with that, President Hoffa.

 TESTIMONY OF JAMES P. HOFFA, GENERAL PRESIDENT, INTERNATIONAL 
BROTHERHOOD OF TEAMSTERS; JACQUELINE S. GILLAN, VICE PRESIDENT, 
ADVOCATES FOR HIGHWAY AND AUTO SAFETY; MAJOR MARK ROGERS, STATE 
  COMMERCIAL VEHICLE SAFETY COORDINATOR, TEXAS DEPARTMENT OF 
                         PUBLIC SAFETY

    Mr. Hoffa. Chairman DeFazio, thank you for the opportunity 
to appear here, especially before this Committee, and 
Congresswoman Miller, who is our former Secretary of State in 
the State of Michigan. It is an honor to be here.
    I am here as General President of the International 
Brotherhood of Teamsters. We represent over 3 million members 
and their families that every day use the American highway 
system. Over 600,000 of our members every day deliver goods and 
services using our American highways. Like every American, they 
have a right to safe American highways. I am very alarmed that 
the DOT is moving forward with this dangerous pilot project 
that leaves so many questions about what is going on in Mexico, 
and many of them have been raised here today. I have outlined 
these concerns in my written testimony.
    Mr. Chairman, the Bush Administration is playing Russian 
roulette with the highways and the safety on America's 
highways. DOT resources do not exist to inspect the thousands 
of trucks called for in the so-called pilot program. The 
Mexican government has had 15 years to address the issue of 
drug safety and they have failed miserably. They have had 15 
years to implement a simple computer program like we have in 
the United States, like all of us have here in every State, all 
coordinated together, and they have not done that. They have 
had 15 years to have a driver safety program and a program 
that, protocols like we have in the United States, and they 
have not done that. They have had 15 years to create a driver 
protocol for drug testing and physicals. And they have not done 
that.
    I am very shocked by the testimony here today, by the way, 
which was different than what they gave to the Senate. When 
they testified before the Senate, they said, well, we are going 
to collect the drug samples down in Mexico. There is not one 
drug testing lab in Mexico. After 15 years, they do not have a 
drug testing facility down in Mexico.
    Then today, Mr. Hill said, oh, we are going to do it at the 
border. Then in part of his testimony after that he said, well, 
we are going to collect them down in Mexico. Well what is it? 
Where are they going to be collected? And what is the 
temperature? I know how we do it in the United States. People 
almost watch you take the specimen to make sure it is your 
specimen. We all know how it is done, and it is not going to be 
done in Mexico.
    Left to its own, without the pressure of the United States, 
Mexico trucks are even worse than they were before. Mexican 
truck drivers are underpaid, untrained and overworked. They are 
often forced to drive 24 hours without sleep. This is not the 
fault of the Mexican worker. The sole responsibility for 
meeting the standards required by NAFTA and the Murray-Shelby 
safety provisions that Congress enacted in 2001 lies with the 
Mexican government and the United States Government.
    I would like to tell this Subcommittee what the Teamsters 
Union has learned about Mexican trucking. Each of you has a 
copy of an investigative report that we did in the Teamster 
magazine, and I have provided that and I would ask it be made 
part of the record. This is the story of an investigative 
report done by Charles Bowden, who in 1999 wrote a story about 
what is going on with the Mexican drivers. He was told in 1999 
that they were exploited, exhausted, the truck drivers pushed 
to the limit by their employers. And guess what? Seven years 
later, he found the same thing is going on.
    Here are a few excerpts from Mr. Bowden's article, which 
are based on interviews with Mexican truckers. One said this: 
``The longest distance I drive is from Ensenada to Cancun, 
2,700 miles, five days and six nights. I do it myself and I do 
it without a second driver.'' According to Bowden, they are all 
family men who run the highways at least 25 days a month, and 
they are adamant about two things, that nobody can make these 
runs without using cocaine and crystal meth, and they all use 
marijuana to come down from the high.
    These drivers are victims of a system that the U.S. will 
depend on to enforce drug and alcohol testing and hours of 
service regulations. Is this the so-called pilot program that 
we are supposed to rely on? What kind of confidence can we have 
in that program? The Transportation Department Inspector 
General just a couple of years ago found, after a very close 
inspection, that they did not meet the standards of the 
American highways.
    The fact that there is no lab, after all this time, tells 
us an awful lot.
    What we are asked to do is believe that the Mexican driver 
will produce a log book at the border that is accurate about 
all his driving for the eight days previous in Mexico. Who 
would really believe that? Even now in the commercial zone, of 
the top out of service violations for Mexican drivers that are 
screened, 15 have no log books and 22 percent try and come 
across the border without commercial driver's licenses. We 
don't even know who these drivers are because of the lack of a 
computer.
    So I would say, Mr. Chairman and members of the 
Subcommittee, there are so many safety and homeland security 
issues that need to be addressed before one Mexican truck comes 
across the border that we should just say stop. We have to know 
that our highways have to be safe. I would hope that Congress 
could do something to stop this dangerous program, which is 
really a mad rush to judgment, before this Administration runs 
out.
    Thank you.
    Mr. DeFazio. Thank you, President Hoffa.
    Ms. Gillan.
    Ms. Gillan. Thank you very much, Mr. Chairman, for the 
opportunity to testify. I am Jackie Gillan, Vice President of 
Advocates for Highway and Auto Safety.
    I would also like to add that the preeminent truck safety 
groups, Public Citizen, CRASH and Parents Against Tired 
Truckers, also support the views in my statement.
    With only five minutes, it is hard to know where to start. 
My 21-page statement can be summed up in three simple words: 
don't do it.
    Now let me explain why. The announced pilot program or so-
called demonstration project has all the elements of a perfect 
storm. This perfect storm consists of a failed safety agency, 
the Federal Motor Carrier Safety Administration, overseeing 
this project, major safety deficiencies at the border, a 
cynical decision to open the border under the ruse of a phony 
pilot program, and lastly, the American public paying the 
price.
    I really want to digress for a moment, because 
coincidentally with this hearing, we had a conference this 
weekend called Sorrow to Strength, where we had 65 people, 
family members who have lost someone in a truck crash attend. 
Many of those people are here in the hearing room today. They 
have absolutely no confidence that the Federal Motor Carrier 
Safety Administration can protect their safety over domestic 
trucking, let alone foreign trucking. We have Jane Mathis, who 
lost her son and his bride of five days in a truck crash; the 
Willbornes from Oklahoma whose son was moving into the dorm his 
freshman year and was killed by a truck crash; and we have the 
Woods family here from Virginia, whose daughter was killed 
returning to college from her fall break. These are the people 
that this pilot program is going to affect if we don't get it 
right.
    FMCSA has failed to meet any of its safety goals in the 
last seven years. We still kill over 5,000 people annually and 
115,000 or more are injured. FMCSA has ignored Congressional 
mandates to issue safety regulations. And when they have issued 
them, they are weak and ineffective. There are two important 
safety regulations, the hours of service regulation for truck 
drivers and entry level driver training has been overturned 
unanimously in the court with stinging opinions. I am also 
going to submit for the record a report that we released 
yesterday, The FMCSA, A Failed Agency, that goes into great 
detail to all of this.
    The second component of our perfect storm is inadequate 
border safety. We have already heard about some of the safety 
deficiencies that are already at the border. I would like to 
point out that even the IG in his testimony this afternoon used 
the term that DOT has substantially met the requirements of 
Section 350, and he did not say that they have met all the 
requirements of Section 350. There are still serious questions 
about drug and alcohol testing, medical and physical fitness of 
drivers, and whether the States are now enforcing out of 
service for foreign carriers.
    I would also like to mention motor coach bus inspections, 
which the IG has said are sporadic or non-existent, and the 
issue of hazardous materials transportation with Mexico-
domiciled carriers. Now, I know these are not part of the pilot 
program yet. But because Section 350(a) and (b) expressly state 
that ``No vehicles owned or leased by a Mexican motor carrier 
can be permitted to operate beyond the border zone until the 
provisions of Section 350 have been fulfilled,'' this is a 
legal bar to any commercial vehicles being granted operating 
authority to travel beyond the border zones, until all the 
requirements of Section 350 are fully completed.
    Lastly, we have the third component of the perfect storm is 
the one year pilot program, a calculated, cynical move to open 
the border regardless of safety. Last week's testimony before 
the Senate Appropriations Committee made it clear there was no 
planning involved, no methodology to assure an objective trial, 
no criteria for selection of participating motor carriers. We 
also agree with you, Chairman DeFazio, that the pilot program 
that they are composing does not comply with the law drafted by 
this Committee in 1998 as part of the TEA-21 Section 407 
governing the conduct of pilot programs by the U.S. Department 
of Transportation. Calling the pilot program a demonstration 
project fools no one.
    We are also concerned because this pilot program was kept 
in secrecy for many years, even though Secretary Peters at her 
confirmation hearing assured the Senate Commerce Committee that 
there wasn't any pilot program in the making. Last October, 
Advocates for Highway and Auto Safety filed a FOIA to get the 
documents to better understand and see what they were thinking 
of in doing this pilot program. The Administration stalled and 
stalled, and even though they were supposed to provide the 
documents within 20 days, no documents were made available, and 
therefore just this morning, we were forced to file suit in 
Federal court in an effort to get these documents.
    There is little question that the intent of the pilot 
program is to supply the justification for opening the border 
once the year is over. Mr. Chairman, we cannot let an agency 
that has failed us so miserably in protecting domestic trucking 
operations say, trust us on this critical decision affecting 
American families. And I would also like to add that with 
CAFTA, once the Mexican border is open completely, we do not 
have any Section 350 guaranteeing the trucks that are going to 
be coming up through Central America.
    Thank you.
    Mr. DeFazio. Thank you, Ms. Gillan.
    Major Rogers.
    Mr. Rogers. Good afternoon, sir. Mr. Chairman and members, 
my name is Mark Rogers. I represent the Texas Department of 
Public Safety, and in my opening statement I would like to give 
you an overview of our Texas border and safety program.
    Our border safety inspection program is operated to provide 
both an effective and efficient commercial vehicle enforcement 
program that is designed to ensure public safety and security, 
prevent the premature and unnecessary deterioration of our 
State highway infrastructure due to overweight vehicles, and to 
create an environment that promotes both vital and safe 
commerce in the State of Texas.
    Our program is designed to ensure that only competent 
drivers are operating safe vehicles in compliance with our 
State statute. Our program also encourages the trucking 
industry to take a greater participatory role in resolving any 
transportation issues that arise. It is important to note that 
at our Texas-Mexico border, our goal is not only ensure safe 
vehicles, but it is not to impeded legally compliant vehicles 
as well.
    When we determine whether to stop and inspect a vehicle, we 
basically use four criterion. We visually inspect each vehicle 
that passes by our inspection facility to see if there are any 
safety defects, we weigh each vehicle on weigh and motion 
equipment, we look to see if the vehicle is displaying the 
valid commercial vehicle safety decal, and then we also look to 
see if there is any other obvious defect or violation of our 
State statutes that we enforce.
    It is important to note that our border inspection program 
does screen 100 percent of the vehicles visually. We also 
screen 100 percent of the vehicles via weigh and motion scales. 
But we generally only conduct a more thorough inspection of 
only about 3 to 5 percent of the vehicles that actually cross 
the border. In calendar year 2006, the U.S. Customs and Border 
Protection Agency indicated that there were over 3 million 
commercial motor vehicles that crossed from Mexico into Texas. 
During this same period, the Department of Public Safety did an 
inspection on more than 101,000 of these vehicles. During these 
101,000-plus inspections, we placed 23,651 of those vehicles 
out of service, or had a 23 percent out of service rate. At the 
same time, during these 101,000-plus inspections, we only 
placed 649 drivers out of service, which is less than 1 percent 
of the total inspections that we have done.
    Thus far in calendar year 2007, our out of service rate for 
vehicles continues to be at 23 percent, and our out of service 
rate for drivers continues to be less than 1 percent. These 
figures at the national level are comparable to the national 
out of service statistics for vehicles, but they are much lower 
than the national out of service statistics for drivers. We 
attribute this to an aggressive enforcement program at the 
border. These statistics are considerably lower than when we 
first started our program back in 1995, when we virtually had a 
100 percent out of service rate.
    At present, the Department of Public Safety staffs the nine 
largest ports of entry on a daily basis. We staff our 
facilities at the same hours that the U.S. Customs and Border 
Protection import lots are open. And our current border staff 
numbers 310. The Texas Department of Public Safety remains 
committed to assisting the Federal Motor Carrier Safety 
Administration in meeting its requirements to ensure compliance 
with Section 350 of the fiscal year 2002 U.S. Department of 
Transportation Appropriation Act. It is through the support of 
the Federal Motor Carrier Safety Administration that our border 
enforcement program has grown to its present level.
    I would like to thank you again for the opportunity to 
address the committee on this important issue, and would be 
happy to answer any questions concerning our Texas border 
inspection program.
    Mr. DeFazio. Thank you, Major.
    President Hoffa, obviously truck drivers often frequent the 
same places, truck stops, whatever. I am wondering, what do you 
hear? We have the story by this author, which seems quite 
credible in terms of the problems in Mexico with the use of 
drugs by the drivers, drivers who are abused by their 
companies, made to drive extremely long distances without rest 
breaks, basically no recognition for hours of service.
    What are your folks who come in contact, do you have any 
substantial number of members who come in contact with some of 
the Mexican drivers? Have you heard confirmation of this with 
drivers who are coming across the border?
    Mr. Hoffa. We hear this down in the commercial zone, when 
the drivers come across, where there is interaction between the 
Mexican drivers, where they drop off the trucks, and then the 
American truckers take them throughout the United States. There 
are a lot of complaints from those drivers about how hard they 
have to work, how they have to use drugs. Basically, our 
drivers are saying, my God, if those people get over here, it 
is going to really be a problem.
    I think it is obvious that these drivers don't have the 
same training, they are going to be pushed. When you get a 
driver that is sent from Monterrey, Mexico, to deliver 
something in Detroit, and he doesn't get it done in time, how 
does he get home? The whole story is, what is his redress? Who 
does he complain to? He doesn't have a union. He will be fired 
if he doesn't do it in a certain period of time or do it the 
way the company wants, because he doesn't have the protection 
that we have of hours in service, of the wage and hour laws 
that a person in the United States would have. They really have 
no protection.
    And this whole idea about, we are going to monitor the 
hours and it is going to be kept in Mexico, well, how are we 
going to get those records down in Mexico and how do we know 
how they are kept? So I think that what I have heard from the 
drivers is that it is going to be a big danger if they come 
across, and that is from the American drivers. The Mexican 
drivers, they are looking at it from the standpoint that, I 
will do whatever I have to do to make a living, because I have 
a family.
    It is the same idea about what is coming across the border. 
We have thousands of people, illegal aliens coming across the 
border. They are coming here because there are jobs here, there 
is money here. I think you are going to see the same thing with 
the Mexican drivers. They want access because they want to make 
money. It is the same thing about people coming across the 
border. And the answer is, they don't have the training and 
they are going to be pushed very, very hard and it is going to 
create a serious problem on American highways.
    Mr. DeFazio. Okay. Major, there was something that I 
brought up with Mr. Hill yesterday, and since it relates to 
Texas, I thought I would ask you about it. In the Inspector 
General's report, they talked about something disturbing, which 
is that we seem to see a huge drop-off in traffic convictions 
from Mexican-licensed drivers from January through May 2006. 
But then the Federal Motor Carrier Safety Administration found 
that Texas had just stopped putting information into the data 
base, that in fact there had been 40,000 violations during that 
relatively short period of time. That is basically a five month 
period, that is 8,000 a month.
    And now they go on to say that that Texas is still not 
providing the information electronically, there is a manual 
process. Can you address that a little bit? It doesn't give us 
a high level of confidence. That is on our side of the border, 
let alone what really goes on on their side of the border in 
terms of violations, whether or not they are recorded properly 
to their record and all that.
    Mr. Rogers. Yes, sir. Citations primarily are written at 
the border via a laptop computer. They are generated for the 
driver and then the driver is given a copy to report to the 
court. Then the citation is not electronically transmitted to 
the court. That is a manual process. It is taken to the local 
court and it is filed by the officer. Once adjudication occurs 
on the offense, some of the courts do electronically report 
dispositions back to the Department of Public Safety, others do 
not. That is a very manual process. Essentially, the reverse 
side of the citation is filled out with the violation 
information and that is forwarded by the court to the 
Department of Public Safety for entry into the commercial 
vehicle driver's license information system.
    There were problems within the department's ability to be 
able to report those violations. It was discovered and 
corrective measures were taken with the support of FMCSA. They 
are currently being reported in an electronic manner.
    I also want to assure you, sir, it hasn't been because we 
have reduced the number of citations that we were writing. The 
number of citations has remained pretty static throughout this 
entire period. We believe we have corrected our reporting 
difficulties.
    Mr. DeFazio. You said that basically you are inspecting 
somewhere between 3 and 5 percent of the vehicles crossing the 
border, and yet you had 23 percent placed out of service, 
23,651 vehicles. Can we expect that if, I mean, let's put it 
this way. Are those 3 to 5 percent because there was something 
obvious going on? Or is that just a random sample?
    Mr. Rogers. No, sir, it is because there was something 
wrong with the truck, the inspector selected that particular 
vehicle.
    Mr. DeFazio. So he saw it moving and saw something?
    Mr. Rogers. Correct. As it was rolling by, it was either 
visually selected or there was some sort of obvious defect.
    Mr. DeFazio. So if we had more personnel and we were able 
to inspect more trucks, do you think that the out of service 
rate would remain the same or perhaps would drop, because these 
are the trucks with the most obvious defects?
    Mr. Rogers. It would either remain the same, sir, or we 
feel that it would decrease somewhat.
    Mr. DeFazio. Okay. But still, that could mean a lot of 
trucks that would be placed out of service who weren't driving 
around?
    Mr. Rogers. That is correct, yes, sir.
    Mr. DeFazio. So that is a concern.
    I don't think I have any other questions. Mrs. Miller?
    Mrs. Miller of Michigan. Thank you, Mr. Chairman.
    Let me just tell you sincerely how much I appreciate your 
calling this Committee hearing, because this is such an 
important issue. I appreciate the panel, the second panel, all 
of you coming again and sitting through what has been a very 
lengthy Subcommittee hearing here today, particular Mr. Hoffa, 
from the great State of Michigan.
    After almost three and a half hours of listening, almost 
without exception, every member on both sides has expressed 
consternation about this program, what a problem it is going to 
be. I think it is well documented by the testimony of all of 
you and the panel before you, in some cases, about the 
problems. This is really just a problem that is waiting to 
happen.
    I don't know what other question I can even ask of you. I 
have no question in my mind that this is a bad situation. I 
would respectfully suggest, I would like to start turning from 
questions and think about an action plan on how the Congress 
could actually stop this. I have been sort of sitting here 
noodling about what we can--I cannot believe we can't do 
anything about this. I do understand it is a manifestation of 
NAFTA. I do understand about the court case, et cetera.
    But perhaps, Mr. Chairman, if I could respectfully suggest, 
just something I have been thinking about, that this 
Subcommittee or the full Committee would send a letter to the 
appropriators, asking to have the funding for this particular 
pilot program denied. That would be a way perhaps for us to 
stop it. I am going to continue to try to think of other 
avenues that we may be able to take as a Congress to stop what 
I think, as I say, is just a huge, huge problem waiting to 
happen.
    As I mentioned, before I came to the Congress, being the 
chief motor administrator in my State, I have worked with Mr. 
Hoffa and other trucking groups with the rodeos, the trucking 
rodeos, and we were so proud of our safety record and the kinds 
of things that we have tried to do in our State and across the 
Nation, in thinking about what the potential is here. I was the 
Chairman of the Michigan Safety Traffic Commission for seven 
years.
    So I appreciate all the information that I am hearing here 
today. What I am saying now is somehow we have to develop an 
action plan of actually trying to stop this pilot program 
before any damage is accrued to our Nation. That would be a 
suggestion that I would lay out on the table and I will be 
thinking of other avenues that might be appropriate as well.
    Again, I want to thank the panelists, and thank you, Mr. 
Chairman.
    Mr. DeFazio. I thank the gentlelady. I actually had a brief 
opportunity to approach Chairman Oberstar while we were voting 
on the Floor and I expressed the same concern to him. I thought 
that there was strong bipartisan concern that we needed to take 
action, that we were not confident that the program, which is 
dependent upon the good offices of officials in Mexico and 
paper keeping, record keeping by these Mexican trucking 
companies, was a sufficient measure to assure that these trucks 
and drivers would be safe when they come across the border into 
the U.S.
    So I agree with you on that, and would like to, I intend to 
first challenge their premise that they are exempt from the law 
regrading pilot problems. It is highly unusual, in the least, 
and Ms. Gillan, you might address this, since you are a 
watchdog safety advocate. I am not aware of any other program 
of this magnitude which did not go through a rulemaking process 
with some notice in the Federal Register, which would be 
required, as I see it, under TEA-21.
    Ms. Gillan. You are absolutely right. I think it is 
interesting that we gave similar testimony to the Senate 
Appropriations Committee, where we challenged them about this 
pilot program. And now they have changed the nomenclature to 
call it a demonstration project. So I think that sort of says 
it all right there, that they are trying to wiggle out from 
under that requirement also.
    And the fact of the matter is, if you also read Section 
350, even though they have excluded trucks transporting 
hazardous materials and buses, the language is very clear that 
no vehicle shall cross the border until all the requirements of 
Section 350 have been met. And they haven't been.
    Mr. DeFazio. Anybody else have an opinion on that?
    Mr. Hoffa. I would think that somehow Congress could deny 
funding for this. Perhaps that is the way to do it, to notify 
this Department and go to the Appropriations Committee and say 
that there is broad bipartisan concern about this program and 
that we will not fund it. And when funding does come up, it 
would be found out and stopped.
    Now, I know it is a big, amorphous budget and it is hard to 
find the money in it. But at least that type of directive might 
be something that would be a way to de-fund this particular 
project. I have heard that has been done other ways, other 
times. So may de-funding it or not funding is a possible way to 
do it.
    Mr. DeFazio. I am sorry, I didn't notice, we do have 
another member of the Committee. I was so focused straight 
ahead here.
    In response to that, the problem of course is that the 
giant Continuing Resolution would have extended funding through 
next October for this particular program, in all probability, 
since we didn't earmark anything and we left great discretion 
to the agencies. So something, it seems to me, a limitation 
amendment is certainly something that we can offer, if our 
colleagues on Appropriations would see fit. But that would only 
apply to the next fiscal year, which would mean we would still 
have the program between May and October, at least. So I am 
going to look for something that we might be able to do a bit 
more immediately.
    Mrs. Napolitano, I apologize.
    Mrs. Napolitano. That is okay, you are on a roll.
    To Mr. Rogers, do you check with the courts to see the 
percentage of citations that are complied with in regard to 
appearing in court, correction of defects and paying of any 
fines?
    Mr. Rogers. Yes, ma'am, we do. Roughly about 80 percent of 
the citations that we write are complied with within the terms 
of the citation. That leaves the remaining 20 percent that 
result in warrants for the arrest of the driver. Then we have 
those warrants in file. Should we interact with the driver, we 
would serve those warrants and arrest that driver.
    Mrs. Napolitano. But do you do that at the border? Because 
if they come in, do you have the ability to identify those 
warrant violators?
    Mr. Rogers. Yes, ma'am.
    Mrs. Napolitano. You do, okay. Do you by any chance speak 
to the other border highway patrol or other law enforcement 
agencies to share comments? Do you meet and discuss this issue?
    Mr. Rogers. No, ma'am. It is not a regularly scheduled 
meeting between the four border States.
    Mrs. Napolitano. Don't you think it might prove 
advantageous to be sharing information?
    Mr. Rogers. Yes, ma'am. The more information you have, the 
more sound decisions you can make. But it is has not been 
something that has ever been put in place.
    Mrs. Napolitano. Well, maybe we should suggest to the four 
border States that they discuss the issue. Because it will 
affect the safety of the people that you guard.
    Mr. Rogers. Yes, ma'am.
    Mrs. Napolitano. Thank you.
    To President Hoffa, have you worked at all, have you had 
any dialogue with the Mexican labor unions in regard to this 
issue?
    Mr. Hoffa. We have not. We know some of the people down 
there. But on this issue, they haven't approached us nor have 
we approached them. We should probably do that. But they are 
very, very weak with regard to these issues. And there are 
thousands and thousands of independent truck drivers that don't 
belong to the unions. Unions there are relatively weak, and 
they do not have enforcement power.
    When people come across the border, they don't belong to 
unions. The number of people belonging to the transportation 
union is so small, that it really wouldn't cover and they 
wouldn't have any jurisdiction over this. Now, maybe they could 
speak out, that is something they could do. We could talk to 
them about that.
    But as far as the individual drivers, they really are not 
union members.
    Mrs. Napolitano. I understand that. But if they were able 
to maybe suggest a way of being able to be more effective in 
providing safety safeguards.
    Mr. Hoffa. Well, as I said in my testimony, it has been 15 
years. One of the things I like to point out is that when NAFTA 
was passed in 1993, the United States actually had a trade 
surplus with Mexico. Today we have a $68 billion trade deficit 
with Mexico. So we know what is going on with Mexico, 
everything is coming out and very little going in. There is a 
huge trade deficit with Mexico. You would think that with all 
that revenue and all that time, that they would have addressed 
these issues. I agree, if the unions could speak out, that 
would be good. But it really is a Government issue to bring up. 
And you would think they would want to bring up their standards 
to our level, so they could be true partners in NAFTA. And I 
think they have failed that mission.
    Mrs. Napolitano. I agree with you, because I know that 
prior to NAFTA, I was not here during passage of that 
agreement, it did not encompass some of the safeguards that 
would be necessary. This is one of the reasons why I am totally 
against some of these trade agreements that don't protect our 
general public in the United States. We seem to be able to give 
carte blanche, if you will, in some areas, without 
understanding that what we are doing is tying the hands of our 
law enforcement and of our other agencies to be able to protect 
the United States, not only the business, but the public safety 
of the people.
    We talked about the issue of being able to have a truck 
driver deliver, say, to New York and go back empty. Do you 
think that happens, or do they pick up loads and take back?
    Mr. Hoffa. It is hard to imagine that a Mexican truck 
driver who was interested in making money and feeding his 
family, he is going to find a way to make money. That is the 
issue of cabotage, that they are not going to go back empty, 
they are going to find something to take back, they are going 
to find some way to stop. There is always a network of people 
that say, if you stop here you can pick up something.
    And I think that is something that the people from the 
Administration really have no answers for. They had no way to 
police the people in, when we all know about people coming to 
this Country, they say they are going to be a student, they get 
a visa, they come here, they disappear into the system. No one 
can find these people. And if that is true, we can't find 
people who come to our Country who have a visa and disappear, 
how are we going to find these people?
    Mrs. Napolitano. But Mr. Hoffa, on the way back, they have 
to cross our border. Do we not at that border find out if they 
are going empty or are they carrying materials and are they 
qualified or allowed to be able to carry it back into Mexico? 
Because they have to go through our border.
    Mr. Hoffa. I didn't hear any testimony on that, and I 
wonder what kind of documentation they have.
    Mrs. Napolitano. Well, maybe that is something we need to 
go into.
    Mr. Chair, there are a couple of other things I would like 
to cover.
    Mr. DeFazio. Go ahead.
    Mrs. Napolitano. Suggestion, panel? Any one of you. What do 
you suggest we need to do. And I heard you about the 
appropriation, withdraw the funding or the cutting of funds to 
be able to do that. But what other suggestions would you have 
to be able to begin imposing upon this Administration the 
necessity of being more careful on what we do on this specific 
issue? Because it will affect our people and our safety.
    Mr. Hoffa. Well, the problem, and I have been critical of 
this Administration, they never saw a trade agreement they 
didn't like. Every trade agreement they make, whether it is 
Peru, whether it is Panama, whether it is Colombia, one trade 
agreement after another, CAFTA, NAFTA, on and on and on. Every 
one of them results in a massive trade deficit. Every one of 
these agreements ends up with a trade deficit. I would like to 
see one that works, or maybe it was equal.
    The answer is, we have to make sure that there is an 
equality. If you are going to sell your goods to us, we have to 
be able to sell our goods to you. And with regard to what we 
are talking about today, one of the Congressman said, I would 
like to see it on the fact that if we are going to have 10 
trucks going over the border into the United States, we will 
have 10 American trucks going over there. Some type of equality 
with regard to trade, some type of equality with regard to 
services. To me that makes sense, so that we have some idea 
that this is a fair deal. We want fair trade. No one wants to 
build a wall around America. But we realize that we have to 
have fair trade. And we do not have that today. It is a one way 
street with a $68 billion trade deficit.
    Mrs. Napolitano. So what would be the answer?
    Mr. Hoffa. The answer is we should rewrite NAFTA, is one of 
the things we should do. We should rewrite all these trade 
agreements to make sure we have protections for our borders, to 
make sure we preserve our sovereignty. Many of these agreements 
say that we lose our sovereignty, that we cannot have a law 
that is contrary to what they have in Mexico, we can't enforce 
those laws. We have seen tests with regard to environmental 
issues. We have to make sure that we protect what we have in 
the United States, so we keep high standards as opposed to 
going to low standards.
    And that is the issue here with regard to highway safety, 
that we know that our standards are up here, and we believe 
that the standards in Mexico are down here. Until they meet our 
standards, they should not be able to come across our border.
    Mrs. Napolitano. They have been attempting to improve the 
standards. That I know for a fact. They have not been able to 
improve them to the standards that we keep raising, because we 
do keep raising our standards to protect our folks. It is 
something that we need to go at.
    Ms. Gillan?
    Ms. Gillan. Advocates for Highway and Auto Safety comes at 
it from a little bit different perspective, because we did not 
take a position on NAFTA. We are a coalition of consumer 
health, safety and insurance companies. We had many of our 
consumer board members who opposed NAFTA and our insurance 
members supported NAFTA. However, we are completely in 
agreement that NAFTA should not degrade the safety of the 
American public. That is why I am here testifying, saying that 
the border is not ready to be opened. You have heard all the 
different issues. You could have a driver from the central part 
of Mexico drive 12, 14 hours, get to the border and still have 
11 hours that they can drive. And fatigue is a major problem.
    Mrs. Napolitano. And the answer?
    Ms. Gillan. And the answer is, I think we need to get some 
legislation passed to stop this pilot program from going 
through. The Administration says they want to move it in 60 
days. That doesn't give us a lot of time and they are not going 
to correct these problems with 60 days.
    Mrs. Napolitano. Major?
    Mr. Rogers. Ma'am, unfortunately, as a State employee I 
can't offer any advice as to pro or con against any piece of 
legislation.
    Mrs. Napolitano. But given your findings, given the impact 
it has, would you want to have a budget to be able to help you 
do better enforcement?
    Mr. Rogers. At present, ma'am, the budget that is provided 
to us by the Federal Motor Carrier Safety Administration is 
quite adequate to do our enforcement program.
    Mrs. Napolitano. It is?
    Mr. Rogers. Yes, ma'am. They provide us with about $24 
million each fiscal year, which is very adequate for our 
enforcement.
    Mrs. Napolitano. Okay, then the question, sir, would be, if 
they go ahead and work through this pilot, this demonstration 
project, what would be the impact on your ability to be able to 
do the job?
    Mr. Rogers. It would really be insignificant. We already 
have 3 million trucks crossing a year in Texas. So a few more 
will really not have an impact on us.
    Mrs. Napolitano. But can you tell me if there is any real 
impact on the communities themselves? I was born and raised in 
Brownsville, Texas. I can tell you, I grew up in that area. To 
see a mile long of trucks waiting to cross is not necessarily 
what I remember of my home town.
    Mr. Rogers. Yes, ma'am. We are not the ones that create the 
backlog. That is when they actually cross the border and 
interact with Customs and Border Protection. Basically, if you 
are not selected for inspection inside our facilities, you move 
through in just a few seconds. So we really don't impede that 
process. The lines occur when you are waiting to clear in 
Customs and Border Protection.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Ms. Gillan. Could I just add something? I just spent this 
weekend met a police officer from Fort Worth, and he was 
mentioning to me, I think it is an issue no one has even 
focused on, the Federal money for truck inspections goes to the 
State. But we haven't even thought about the burden is going to 
be on local police, that once these trucks go out, leave the 
border zones and travel throughout the United States, those 
police are also going to be charged with enforcing trucks, if 
they see a truck that is unsafe or a driver that is fatigued. 
Nobody has even thought about the additional burdens on local 
police when they have to start enforcing these truck safety 
laws.
    Mrs. Napolitano. Mr. Chair, with your indulgence, because I 
sat on transportation for six years in California, and the 
Highway Patrol, which deals with not just--they deal all over--
what is specific to that issue is the safety, the upkeep, the 
maintenance, the driver's license, the placarding, safety 
factor in the normal, if the person had slept, the logs, all of 
that came into play. As I say, it hasn't changed much. There 
are still the same questions, as to whether or not we are going 
to be allowing the truck drivers to operate under the same 
premise that they operate in Mexico, with a few adjustments, 
but not enough to be able to provide the law enforcement the 
ability to determine whether or not they are safe to drive on 
our streets and our highways.
    Thank you, ma'am. Thank you, sir.
    Mr. DeFazio. Thank you, Ms. Napolitano.
    I want to thank the panel members for their time and their 
testimony. I think you can see with perhaps one exception there 
is broad concern on this Committee on a bipartisan basis about 
the potential problems with this program. We are going to do 
the best we can, I am going to begin to try and formulate a 
strategy to push back on the Administration here. We are not 
confident that they have reached the point at all where they 
can assure us that these trucks coming across the border are 
going to be as safe as American trucks, and even within our own 
industry in our Country we have problems. So to bring in yet 
another pool that pulls down the overall safety is not, 
certainly not desirable.
    Thanks again for your time and your testimony. The 
Committee is now adjourned.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                    

</pre></body></html>
